<html>
<title> - TRANSPORTATION SECURITY ADMINISTRATION OVERSIGHT: CONFRONTING AMERICA'S TRANSPORTATION SECURITY CHALLENGES</title>
<body><pre>[Senate Hearing 113-695]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-695
 
                 TRANSPORTATION SECURITY ADMINISTRATION
                    OVERSIGHT: CONFRONTING AMERICA'S
                   TRANSPORTATION SECURITY CHALLENGES

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 30, 2014

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                      U.S. GOVERNMENT PUBLISHING OFFICE
95-840 PDF                  WASHINGTON : 2015                        

_________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6601160926051315120e030a164805090b48">[email&#160;protected]</a>  

     
       
       
       
       
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
BARBARA BOXER, California            JOHN THUNE, South Dakota, Ranking
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           ROY BLUNT, Missouri
MARK PRYOR, Arkansas                 MARCO RUBIO, Florida
CLAIRE McCASKILL, Missouri           KELLY AYOTTE, New Hampshire
AMY KLOBUCHAR, Minnesota             DEAN HELLER, Nevada
MARK BEGICH, Alaska                  DAN COATS, Indiana
RICHARD BLUMENTHAL, Connecticut      TIM SCOTT, South Carolina
BRIAN SCHATZ, Hawaii                 TED CRUZ, Texas
EDWARD MARKEY, Massachusetts         DEB FISCHER, Nebraska
CORY BOOKER, New Jersey              RON JOHNSON, Wisconsin
JOHN E. WALSH, Montana
                    Ellen L. Doneski, Staff Director
                     John Williams, General Counsel
              David Schwietert, Republican Staff Director
              Nick Rossi, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 30, 2014...................................     1
Statement of Senator Rockefeller.................................     1
Statement of Senator Thune.......................................     9
Statement of Senator Boxer.......................................    14
Statement of Senator Scott.......................................    21
Statement of Senator Booker......................................    23
Statement of Senator Ayotte......................................    25
Statement of Senator Blumenthal..................................    27
Statement of Senator Klobuchar...................................    29
Statement of Senator Coats.......................................    31

                               Witnesses

Hon. Mark Warner, U.S. Senator from Virginia.....................     1
Hon. John S. Pistole, Administrator, Transportation Security 
  Administration, U.S. Department of Transportation..............     4
    Prepared statement...........................................     5

                                Appendix

Response to written questions submitted to Hon. John S. Pistole 
  by:
    Hon. John D. Rockefeller IV..................................    37
    Hon. Barbara Boxer...........................................    38
    Hon. Maria Cantwell..........................................    39
    Hon. John Thune..............................................    43
    Hon. Roger F. Wicker.........................................    49
    Hon. Roy Blunt...............................................    50
    Hon. Marco Rubio.............................................    51


                        TRANSPORTATION SECURITY.
                 ADMINISTRATION OVERSIGHT: CONFRONTING.
              AMERICA'S TRANSPORTATION SECURITY CHALLENGES

                              ----------                              


                       WEDNESDAY, APRIL 30, 2014

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:35 p.m., in 
room SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, Chairman of the Committee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. Senator Warner, we welcome you here. And you 
had wanted to testify, then not wanted to testify, but there 
was something that happened in the Navy which you wanted to 
speak of. And Senator Thune kindly has agreed to that. And so, 
you proceed.
    Now, the first time we talked, before you said you didn't 
want to do it, I gave you 3 minutes.
    Senator Warner. No, it will be a quick 3 or 4 minutes.
    The Chairman. OK.

                STATEMENT OF HON. MARK WARNER, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Warner. And I want to thank the Chairman for the 
opportunity to be back before the Commerce Committee. I will 
not take it personally that so many of my Republican colleagues 
showed up for my statement and none of the Democrats showed up.
    [Laughter.]
    Senator Warner. So I hope that is not a sign of things to 
come.
    But I do appreciate you and the Ranking Member's 
opportunity to just, frankly, share with you, as I know you 
have Mr. Pistole coming up next from TSA, but something that 
you may have heard about, but I have a number of concerns that 
I wanted to raise. And this is about the TWIC card program.
    The Chairman. Can you pull that mike a little closer?
    Senator Warner. The TWIC card program.
    This chair is really low. I don't know--I feel like I am 
kind of, you know----
    [Laughter.]
    Senator Warner. Is this a Commerce Committee ploy against 
the witnesses?
    But my interest in the TWIC program was sparked by a tragic 
shooting incident at the Norfolk Naval Base on March 24. A 
truck driver, who had a valid TWIC card, was cleared onto the 
base, passed through two security checkpoints, and got access 
to the pier where our U.S. Navy destroyers were docked.
    This individual, Jeffrey Savage, then disarmed a ship 
security officer, used that weapon to shoot and kill another 
sailor, who heroically intervened to try and protect his 
shipmate. Other Navy security personnel finally then shot and 
killed Mr. Savage. Master-at-Arms Second Class Mark Mayo was 
laid to rest at Arlington National Cemetery last Friday with 
full military honors for his selfless actions.
    But since the March 24 shooting, Mr. Chairman, we have 
learned that this truck driver had a troubling history of 
criminal offenses that were never disclosed to DHS or TSA. He 
had been issued a TWIC card despite at least two felony 
convictions, including one for voluntary manslaughter. These 
convictions occurred beyond the 5-year window used by DHS and 
TSA when evaluating this application.
    Let me just say that again. Mr. Savage, who clearly had a 
checkered past, including voluntary manslaughter, had been 
issued a TWIC card that granted him, along with a bill of 
lading, access to sensitive U.S. security areas.
    This tragedy was obviously deeply felt and still is of 
enormous interest in Norfolk and Hampton Roads. And while the 
criminal investigation is not completed and it may ultimately 
be determined that this shooting had more to do with inadequate 
training and procedures at the gate and had less to do 
specifically with the shooter's TWIC card, our look into this 
tragedy revealed some obvious deficiencies in the TWIC program.
    There is a widespread misunderstanding about what exactly a 
TWIC card does and does not represent. In fact, DHS officials 
have told us that job applicants in the fast-food industry 
typically undergo a more robust background check than 
applicants for a TWIC card. Harder to get a job at McDonald's 
with a security check than to get a TWIC card.
    TSA officials revealed they do not have access to criminal 
databases beyond the initial applicant screening. That means 
that there is no substantial look-back.
    And criminal issues that arise after that TWIC card has 
been issued--and, again, the period you are looking at is only 
for a brief period during the person's life. If the event took 
place a long time ago in the background--maybe that should be 
the case--it doesn't even get reported. But if once you get the 
TWIC card and you create another criminal offense, that doesn't 
get into any database.
    Now, officially, TSA requires cardholders to self-report on 
any crimes. But, Mr. Chairman, my colleagues, listen to this: 
out of the more than two million people who have been issued a 
TWIC card, only 3 individuals have ever stepped up and self-
reported that they have committed a crime after they have been 
issued that card--3 out of two million.
    That should send a chill down all of our spines, in terms 
of what we are doing on security of these installations. I 
think it is fair to say that some security personnel have 
placed too much trust in what the TWIC card represents.
    Now, since the shooting in Norfolk, the Navy has moved 
forward to improve training and enhance procedures at the gate, 
and that is appropriate. But multiple GAO investigations over 
the years have documented problems with the TWIC program, and 
there has been little follow-up.
    So as you receive testimony today on the TWIC program, I 
would suggest a couple of specific issues deserve your 
consideration.
    We all have to work together to strike the right balance 
between security and daily operations. You can't wait 3 hours 
to get onto a base installation, but our challenge is to 
provide a system that gives appropriate access to individuals 
with legitimate business at our military bases without creating 
unmanageable delays.
    One area that TSA is specifically asking for help is in 
strengthening the background check. TSA also, I believe, needs 
the authority to do periodic checkups on cardholders. And that 
will require better cooperation from our law enforcement 
agencies by providing greater access between those databases 
and the TSA database.
    Now, we all know there are important issues of security and 
privacy that also have to be protected. But as we see these 
brave men and women who defend our country, they ought to be 
able, especially when they are back home-ported or back in the 
country, be able to go to work on a daily basis and feel the 
installations they work at are safe.
    So, Mr. Chairman, I really appreciate the chance to appear 
before the Committee which I was so proud to serve on for 5 
years. I know the Committee and you and the Ranking Member and 
other members will take up this issue.
    But think: it is easier to get a job at a McDonald's in 
terms of a security background check than receiving a TWIC 
card. And even if you have that card, the failure to have any 
subsequent reporting, the record now, with 2 million people 
with these cards and only 3 people self-reporting, that just 
cannot stand on a going-forward basis.
    So, Mr. Chairman, I know you will take appropriate actions, 
but you can count on this Senator to work with you in any way 
possible to make sure we get a better system in place.
    With that, Mr. Chairman, I thank you and the Committee.
    The Chairman. Thank you, Senator Warner. And I can't help 
but say that you dumped us for the Finance Committee.
    [Laughter.]
    Senator Warner. Mr. Chairman, it was a lateral trade at 
worst.
    The Chairman. Well, a trade it was. All right, I thank you 
very much. And thank you for your comments.
    Welcome. I enjoyed very much our lengthy conversation 
yesterday and look forward to your testimony.
    And we have today Barbara Boxer, Chairman Boxer. This only 
happens about two or three times a year, so this is obviously 
historic.
    Please proceed.

       STATEMENT OF HON. JOHN S. PISTOLE, ADMINISTRATOR,

            TRANSPORTATION SECURITY ADMINISTRATION,

               U.S. DEPARTMENT OF TRANSPORTATION

    Mr. Pistole. Well, good afternoon, Chairman Rockefeller and 
Ranking Member Thune and distinguished Senators of the 
Committee. Thanks for the opportunity to testify today.
    As you know, TSA's primary mission is to protect the 
nation's transportation systems, including aviation, mass 
transit, rail, highway, and pipeline, to ensure freedom of 
movement for people and commerce.
    Each year, TSA screens over 650 million passengers and 1.5 
billion checked and carry-on bags on domestic and international 
flights departing the U.S. TSA also strengthens and enhances 
the security of an interrelated, multimodal transportation 
network that includes millions of bus passengers and billions 
of passenger trips on mass transit each year.
    To fulfill this vital mission, TSA employs a layered 
approach to security through a well-trained frontline 
workforce, state-of-the-art technologies, intelligence analysis 
and information-sharing, behavior detection, explosive 
detection canine teams, Federal air marshals, and regulatory 
enforcement.
    It is my goal to apply a risk-based approach to all aspects 
of TSA's mission so we can provide the most effective security 
in the most efficient way. When I last testified before this 
committee, TSA was in the initial stages of operationalizing 
our first risk-based security, or RBS, initiatives. I am 
pleased to report to the Committee that RBS measures have been 
broadly implemented across the nation, and I appreciate the 
Committee's support on that.
    TSA PreCheck was one of the first initiatives in our shift 
toward a risk-based, intelligence-driven approach to security, 
and I am pleased to report that the TSA PreCheck initiative has 
developed into an effective security program at 118 airports 
nationwide. As you know, passengers may qualify for the program 
through a trusted-traveler program such as TSA PreCheck or 
Customs and Border Protection's Global Entry program.
    In December, we launched our TSA PreCheck application 
program online, and through this initiative passengers can 
apply directly to participate in TSA PreCheck and undergo a 
background check in order to become a known and trusted 
traveler for a period of up to 5 years. To date, more than 
200,000 people have applied at over 240-plus application 
centers nationwide.
    These RBS initiatives have enabled TSA to become more 
efficient and have resulted in over $100 million in savings in 
our Fiscal Year 2015 budget. I anticipate that expanding RBS 
principles throughout TSA will result in a smaller, more 
capable workforce focused on our counterterrorism mission.
    I would also like to share a number of important steps TSA 
has taken to strengthen airport security following the tragic 
shooting of Transportation Security Officer Gerardo Hernandez 
and two other TSOs at LAX last November.
    After working extensively with key stakeholders and 
listening to concerns from TSA employees, we issued a report 
last month that included a series of actions and 
recommendations implemented or in process nationwide.
    These include, one, redeploying certain VIPR teams--now, 
the VIPR teams are the Visible Intermodal Protection and 
Response teams--from surface venues to airports. Second, we are 
ensuring airport operators conduct active shooter training at 
least twice a year. Third, we issued an operations directive 
requiring all airports to conduct mandatory evacuation drills 
twice a year. Fourth, we required all TSA employees to undergo 
active shooter training and had supervisors brief employees on 
evacuation plans and routes.
    We also recommended, quote, ``best practice'' standards for 
increased law enforcement presence at high-traffic airport 
locations, such as peak travel times at checkpoints and ticket 
counters, to provide visible deterrence and quicker incident 
response times. And, finally, we are procuring and installing 
additional duress alarms at airports around the country.
    Now, within the surface mode of transportation, TSA is 
working to implement a mass transit and passenger rail strategy 
that prescribes specific outcome-based risk-reduction 
activities. We developed this approach together with mass 
transit and passenger rail security stakeholders.
    In the surface modes of transportation where TSA does not 
conduct frontline screening, our partnership with stakeholders 
is key to effective, efficient security. TSA continues to work 
with our partners to develop security standards, assess 
vulnerabilities, and use metrics to drive risk reduction in a 
measurable way.
    My vision for TSA as a high-performance counterterrorism 
organization begins with a skilled and professional workforce. 
Two years ago, we established the TSA Academy at the Federal 
Law Enforcement Training Center in Glynco, Georgia. This was 
part of a necessary first step in a process of moving us 
forward as an agency. I am pleased to report that we just 
finished training nearly all of our over-4,000 frontline 
supervisory transportation security officers, with the next 
level of frontline management, our lead transportation security 
officers, who have just begun a similar course, while managers 
will begin training this fall. I remain committed to creating a 
skilled, diverse, well-trained workforce.
    In conclusion, I appreciate the support of this committee 
and the opportunity to update you on our progress.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Pistole follows:]

      Prepared Statement of Hon. John S. Pistole, Administrator, 
  Transportation Security Administration, U.S. Department of Homeland 
                                Security
    Good morning Chairman Rockefeller, Ranking Member Thune, and 
distinguished Members of the Committee. Thank you for the opportunity 
to testify today about the Transportation Security Administration's 
(TSA) on-going efforts to develop and implement a risk-based approach 
in securing our Nation's transportation systems.
    TSA's primary mission is to protect the Nation's transportation 
systems, including aviation, mass transit, rail, highway, and pipeline, 
to ensure freedom of movement for people and commerce. Each year TSA 
screens approximately 640 million passengers and 1.5 billion checked 
and carry-on bags on domestic and international flights departing from 
U.S. airports. TSA also strengthens and enhances the security of an 
inter-related, multi-modal transportation network that includes 751 
million bus passengers and 10 billion passenger trips on mass transit 
each year. To fulfill this vital mission, TSA employs a layered 
approach to security through a well-trained frontline workforce, state-
of-the-art technologies, intelligence analysis and information sharing, 
behavior detection, explosives detection canine teams, Federal Air 
Marshals (FAMS), and regulatory enforcement. This multi-layered 
approach helps to ensure the security of the traveling public and the 
Nation's transportation systems.
    It is my goal to consistently apply a risk-based approach to all 
aspects of TSA's mission. Whether it is the deployment of Federal Air 
Marshals (FAMs), the allocation of Transit Security Grant resources, or 
air cargo screening policies, TSA is working to implement a risk-based 
approach that allows us to deliver the most effective security in the 
most efficient manner. To this end, TSA continues to examine the 
procedures and technologies we use, how specific security procedures 
are carried out, and how screening is conducted. When I last testified 
before this Committee in 2011, TSA was in the initial stages of 
operationalizing our first Risk Based Security (RBS) screening 
initiatives. I am pleased to report to the Committee that RBS measures 
are now being broadly implemented across the Nation and throughout the 
various modes of transportation.
    Focusing on risk management is also the most efficient way to use 
TSA's limited resources and enhances the value we provide to the 
American people. I recently created the position of Chief Risk Officer 
to assess and standardize our approach to risk management across our 
mission operations and business support operations. This effort allows 
TSA to better assess new policies with respect to risk and value 
creation. As I have testified previously, it is not possible to 
eliminate risk altogether so our efforts must remain focused on 
managing and mitigating that risk. This is the most appropriate and 
sustainable model for TSA.
Expedited Screening
    TSA Pre3<SUP>TM </SUP>was one of the first initiatives in TSA's 
shift toward a risk-based and intelligence-driven approach to security. 
I am pleased to report that the TSA Pre3<SUP>TM </SUP>initiative has 
developed into an effective security program at 118 airports 
nationwide. TSA Pre3<SUP>TM </SUP>is a key RBS initiative that allows 
us to expedite security screening at aviation checkpoints for low-risk 
passengers. As you know, passengers may qualify for the TSA 
Pre3<SUP>TM </SUP>program through a Department of Homeland Security 
(DHS) Trusted Traveler program such as TSA's 
Pre3<SUP>TM </SUP>Enrollment or Customs and Border Protection's Global 
Entry program. Last December we extended TSA Pre3<SUP>TM </SUP>to 
members of the U.S. Armed Forces, and in April of this year extended 
eligibility to all civilian employees of the Department of Defense. TSA 
is currently working with a number of other Federal departments and 
agencies to include other lower risk populations into TSA 
Pre3<SUP>TM</SUP>.
    Another key initiative to expand the TSA Pre3<SUP>TM </SUP>eligible 
population is the TSA Pre3<SUP>TM </SUP>application program that we 
started in December 2013. Through this program, U.S. citizens, U.S. 
nationals, and U.S. lawful permanent residents can apply directly to 
participate in TSA Pre3<SUP>TM </SUP>and, undergo a background check in 
order to become a known and trusted traveler for a period of 5 years. 
This program complements other DHS trusted traveler programs and allows 
passengers to access TSA Pre3<SUP>TM </SUP>who may not otherwise travel 
internationally, or hold a valid passport. To date, more than 180,000 
people have submitted applications at the 240-plus application centers 
nationwide.
    Additionally, TSA uses real-time and intelligence based methods, 
such as Managed Inclusion and TSA Pre3<SUP>TM </SUP>Risk Assessments to 
identify additional passengers eligible for expedited physical 
screening on a trip-by-trip basis. Numerous other risk-based changes 
are in effect nationwide, including expedited screening procedures for 
children 12 and under and adults 75 and older, airline pilots and 
flight attendants, and expedited screening at for military personnel.
    To accommodate TSA's expansion of program eligibility to a greater 
number of low-risk passengers, TSA has taken the following actions: 
expanded the number of airports participating in TSA 
Pre3<SUP>TM </SUP>from the initial 40 to 118 airports; increased the 
number of expedited screening lanes from 46 to more than 600, with each 
lane providing the capability for doubling hourly throughput; and 
increased the number of U.S. airlines participating in TSA 
Pre3<SUP>TM </SUP>from five to nine in FY 2013, with plans of continued 
expansion as airlines are ready. Today, TSA is providing expedited 
screening to over 40 percent of the traveling public.
    RBS has also enabled TSA to become more efficient and has achieved 
$100 million in savings by enabling trusted passengers to more quickly 
move through the checkpoint, increasing the efficiency of both standard 
and TSA Pre3<SUP>TM </SUP>security lanes. TSA anticipates that 
incorporating RBS principles throughout our operations will result in a 
smaller, more capable workforce focused on our counterterrorism 
mission.
Industry Engagement
    Our industry and stakeholder partners are key to TSA's ability to 
implement risk-based security into every area of transportation 
security. These partners were key in the aviation sector as TSA worked 
to establish and expand the TSA Pre3<SUP>TM </SUP>program. Airlines 
worked with us to update their systems to handle new requirements, such 
as Pre3<SUP>TM </SUP>interconnectivity and boarding pass markings, and 
our airport partners worked with us to reconfigure checkpoint space to 
accommodate a Pre3<SUP>TM </SUP>lane for passengers. To date, TSA has 
expanded the program to 9 participating airlines at 118 airports 
nationwide, and continues to partner with industry to add additional 
partners and innovations to the program.
    Our stakeholders were essential in understanding gaps and 
implementing important new procedures across our Nation's airports 
following last November's tragic shooting at Los Angeles International 
Airport (LAX), which resulted in the death of Transportation Security 
Officer (TSO) Gerardo Hernandez, and the wounding of Behavior Detection 
Officer (BDO) Tony Grigsby, Security Training Instructor (STI) James 
Speer, and a passenger. Immediately after the shooting I convened a 
series of stakeholder meetings at TSA Headquarters, which included 
representatives from law enforcement agencies and associations, labor 
groups and industry associations, and other federal, state, and local 
agencies. I requested that these stakeholders provide recommendations 
on how TSA could improve security and prevent another tragic event. 
Thereafter, I again met with stakeholders to present various ideas 
under consideration and seek initial feedback.
    I also sought the input of TSA employees, through both town hall 
meetings and the TSA Idea Factory, our web-based employee engagement 
tool. Employees from all levels of the organization contributed ideas, 
including Federal Security Directors (FSDs), TSOs, staff from Training 
and Coordination Centers, security inspectors, and headquarters 
employees. A number of these ideas were incorporated into the final 
report TSA produced on March 26, 2014.
    The report identifies recommendations adopted by TSA based in part 
on ideas and feedback generated by industry and law enforcement 
stakeholders as well as the TSA workforce. TSA is implementing these 
recommendations nationwide to close gaps identified through our LAX 
review. Some of these measures include recommending that airport 
operators conduct active shooter training and exercises on a bi-annual 
basis, issuing an Operations Directive requiring that all FSDs conduct 
mandatory evacuation drills twice a year, and requiring supervisors to 
conduct briefings for employees regarding the evacuation routes and 
rendezvous points identified in the local mitigation plan. TSA is also 
issuing recommended standards for increased law enforcement presence at 
high traffic airport locations such as peak travel times at checkpoints 
and ticket counters to provide visible deterrence and quicker incident 
response times.
    TSA also recently extended invitations to 24 industry group and 
association members to be part of TSA's Aviation Security Advisory 
Committee (ASAC), which provides recommendations for improving aviation 
security methods, equipment and procedures. The ASAC enhances TSA's 
security posture through consultation with key partners concerning 
potential risks to infrastructure, passengers and cargo, as well as 
gathering input from stakeholders on the effectiveness of TSA's current 
security procedures. Members then develop and share recommendations for 
possible improvements to make TSA's policies more effective.
    Within the surface transportation system, TSA continues to place 
emphasis on industry engagement support and partnership as keys to 
successfully developing security risk reduction policies. One example 
is TSA's effort to implement a mass transit and passenger rail strategy 
that prescribes specific, outcome-based risk reduction activities, 
developed in concert with mass transit and passenger rail security 
stakeholders.
International Engagement
    Engaging international partners is also critical to implementing 
effective risk-based security. Only with the collaboration and 
cooperation of foreign governments and international aviation partners 
can we mitigate international aviation threats. Overseas, TSA focuses 
on compliance, outreach and engagement, and capacity development. By 
conducting foreign airport assessments and air carrier inspections at 
last points of departure (LPDs) to the United States, TSA is able to 
identify, evaluate, and work with our international partners to address 
vulnerabilities through outreach and engagement activities and targeted 
capacity development. These areas of engagement, informed by 
intelligence and combined with the efforts of our international 
partners, form a strong foundation for enhancing risk-based security 
worldwide.
    TSA also worked diligently with our domestic and international 
stakeholders on the Aircraft Repair Station rule. This regulation 
strengthens foreign repair station security as directed by Congress 
through The Vision 100--Century of Aviation Reauthorization Act (P.L. 
108-176). The regulation supplements the Federal Aviation 
Administration's (FAA) repair station safety requirements by requiring 
security measures to prevent unauthorized operation of aircraft under 
repair.
    Repair stations that are on or adjacent to a TSA-regulated airport 
(or commensurate foreign facility) must adopt security measures to 
prevent the unauthorized operation of unattended aircraft capable of 
flight. This includes designating a TSA point of contact, securing 
large aircraft (those with a maximum certificated take-off weight of 
more than 12,500 pounds) capable of flight that are left unattended, 
and conducting employee background checks for the point of contact and 
any employee who has access to the keys or other means used to prevent 
the unauthorized operation of the aircraft.. All repair stations 
certificated under part 145 of the FAA rules are required to submit to 
TSA inspections and implement any TSA-issued Security Directives. TSA 
collaborated with the FAA during this process, and we are pleased that 
the final rule enhances security while minimizing the cost to industry.
Surface Transportation
    TSA must remain vigilant across all modes of transportation. 
Although we know that our adversaries remain intent on targeting air 
travel, which is why 97 percent of TSA's budget is focused on aviation, 
TSA also has the responsibility for surface transportation security. 
Surface transportation modes include mass transit and passenger rail, 
pipelines, freight rail, and highway.
    In the surface mode of transportation like surface and mass transit 
where TSA does not conduct frontline screening, TSA engages with state, 
local, and private sector partners to identify ways to reduce 
vulnerabilities, assess risk, and improve security through 
collaborative efforts. TSA continues to work to develop security 
standards, assess vulnerabilities, develop plans to close 
vulnerabilities, and use metrics to drive risk reduction in a 
measurable way. An integral part of this effort is engaging 
stakeholders in developing effective, operational security. For 
example, TSA conducts corporate security reviews of Mass Transit 
agencies to include Amtrak and over-the-road bus operators through the 
Baseline Assessment for Security Enhancement (BASE) program. This 
program is a thorough security assessment of mass transit and passenger 
rail systems nationally and over-the-road-bus operations, performed by 
our Transportation Security Inspectors-Surface (TSI-S). BASE 
assessments are conducted with emphasis on the 100 largest mass transit 
and passenger railroad systems measured by passenger volume, which 
account for over 80 percent of all users of public transportation.
    TSA continues to work to develop security standards, assess 
vulnerabilities, and use metrics to drive risk reduction in a 
measurable way. An integral part of this effort is engaging 
stakeholders in developing effective, operational security. As an 
example, TSA and AMTRAK have a long-standing security partnership 
through programs that aim to deter terrorist activity through expanded 
random, unpredictable security activities. Amtrak has also expanded 
coordination with rail and transit agencies and local law enforcement 
through the Regional Alliance Including Local, State and Federal 
Efforts (RAILSAFE) program. Operation RAILSAFE is a coordinated effort 
involving counterterrorism activities such as heightened station and 
right of way patrols, increased security presence on board trains, 
explosive detection K9 sweeps and random passenger bag inspections. On 
average more than 40 states and over 200 agencies participate, 
including TSA's Visible Intermodal Prevention and Response (VIPR) 
teams.
    TSA also collaborates with industry through our Intermodal Security 
Training and Exercise Program (I-STEP) across all modes of surface 
transportation. I-STEP tests and evaluates the prevention, preparedness 
and ability to respond to threats. As new threats develop, I-STEP 
scenarios are updated to ensure that our industry partners are 
appropriately prepared.
    TSA works collaboratively and proactively with industry partners to 
ensure resources are appropriately directed towards reducing risk to 
critical pipeline infrastructure. The Implementing the Recommendation 
of the 9/11 Commission Act of 2007 (P.L 110-53) required TSA to develop 
and implement a plan for inspecting the 100 most critical facilities of 
the national pipeline system. These inspections were conducted between 
2008 and 2011, with regular ongoing reviews through TSA's Critical 
Facility Security Review program. I have personally taken the time to 
meet with and engage with officials from the pipeline sector and I am 
confident that our process of using current threat information and 
industry best practices is producing strong, flexible and effective 
security measures in a voluntary, rather than regulatory, manner.
    TSA also partners with the Federal Emergency Management Agency 
(FEMA) to allocate transit security grants that assist states and 
localities in buying down transportation risk through Federal security 
funding. This funding allows for entities to increase mitigation of 
terrorism risk through operational deterrence activities, site 
hardening, equipment purchases, and other capital security 
improvements. Between FY 2006 and FY 2013, approximately $2 billion in 
Transit Security Grant Program (TSGP) funding was awarded to public 
mass transit owners and operators, including Amtrak, and their 
dedicated law enforcement providers. The FY 2014 grants cycle, 
currently in progress, will add another $100M in funding to public mass 
transit agencies and Amtrak. These grants provide funding to eligible 
recipients to enhance security through critical infrastructure 
remediation, equipment purchases, and operational activities such as 
counterterrorism teams, mobile screening teams, explosives detection 
canine teams, training, drills/exercises, and public awareness 
campaigns.
Visible Intermodal Prevention and Response (VIPR) Teams
    Visible Intermodal Prevention and Response (VIPR) teams are a key 
layer of security in the deterring transportation threats. VIPR teams 
augment the security of any mode of transportation at any location 
within the United States and are typically composed of federal, state, 
and local law enforcement and security assets and TSA personnel 
including FAMs, BDOs, TSOs, Transportation Security Specialists-
Explosives, Transportation Security Inspectors, and TSA-certified 
explosives detection canine teams. These teams can be immediately 
deployed to local multi-modal security operations nationwide, or 
respond to specific requirements and emerging intelligence. While VIPR 
teams have predominantly been deployed in surface modes, following 
November's shooting at LAX, I directed that VIPR teams be split evenly 
between surface and aviation modes. This VIPR deployment strategy has 
garnered support among the TSA workforce and we will continue this 
shift to enhance VIPR presence at airports, subject to adjustments 
based on intelligence or special requirements.
Workforce Training
    TSA's mission performance requires a skilled, professional 
workforce. Through a variety of current initiatives, TSA has 
incorporated professionalism, cultural awareness, and customer service 
into our training. Specifically, TSA's new hire training is designed to 
strengthen core competencies in teamwork, respect, communication, and 
accountability. Further, TSA has expanded its partnership with the DHS 
Federal Law Enforcement Training Centers (FLETCs) to provide additional 
training courses for our screening officer workforce. This dedication 
to developing front-line employees recognizes their contributions and 
affirms their critical role in our risk-based security approach.
    In addition to training for the frontline workforce, TSA offers 
programs for all employees that enhance security and leadership skills 
through advanced degree curricula and executive training at prestigious 
institutions. TSA has also completed leadership training for nearly all 
4,331 Supervisory TSOs, and we are implementing similar training for 
our 5,500 Lead TSOs and 1,200 Transportation Security Managers. TSA 
remains committed to the professional development for employees across 
all levels of the organization.
Conclusion
    TSA will continue to enhance its layered security approach through 
state-of-the-art technologies, better passenger identification 
techniques, best practices, and other developments that will continue 
to strengthen transportation security across all modes of 
transportation. I thank you for the opportunity to appear before you 
today, and I look forward to answering your questions.

    The Chairman. Thank you very much.
    And I would call now upon the distinguished Ranking Member.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Mr. Chairman, thank you for holding this 
oversight hearing on the TSA.
    This is the first TSA hearing the Committee has held since 
November 2011 and the first opportunity to hear from 
Administrator Pistole since he provided a classified briefing 
on aviation threats to committee members last February.
    Last week, a public opinion survey released by Harris Poll 
found that only half of respondents thought that TSA security 
screening procedures make air travel safer.
    Given this measure of public skepticism, which may reflect 
the fact that we thankfully haven't experienced another 9/11-
style attack, I hope the Administrator can explain how his 
recent efforts to implement a risk-based approach to 
transportation security at the agency make it more efficient 
and effective at fulfilling its mission of securing the 
Nation's transportation systems.
    I know Administrator Pistole has made this intelligence-
driven approach a top priority and has brought his former law 
enforcement experience to bear in the process. So I look 
forward to hearing about TSA's progress in implementing and 
expanding the risk-based PreCheck program, which I was pleased 
to hear has recently become easier for South Dakotans to 
participate in after two PreCheck enrollment centers opened in 
Rapid City and Pierre.
    At the same time, there have been a number of recent 
security breaches in the news that have raised concerns about 
TSA's ability to oversee and regulate airport security beyond 
the screening of passengers and baggage.
    Last November, an individual entered a Los Angeles 
International Airport terminal and shot a bystander and three 
TSA employees, one of whom, Gerardo Hernandez, tragically died 
from his injuries.
    And just last week, a teenage stowaway scaled an airport 
perimeter fence, climbed into an airplane wheel well, and 
somehow survived a flight from San Jose to Maui, Hawaii. 
Although TSA and FBI investigators have yet to release further 
details on how he evaded detection by the airport's 
multilayered security system, I hope the Administrator can 
discuss generally the TSA's role in overseeing airport 
perimeter security and access controls and how we all might 
learn from these two incidents.
    Technology is one tool that TSA uses to mitigate threats, 
but the Agency's history of technology acquisition is spotty at 
best, from the failed deployment of unreliable puffer machines 
to the recent removal of those advanced imaging technology 
machines that could not be modified to replace detailed images 
of passengers with more generic images and automated threat-
detection software.
    Industry stakeholders have also criticized TSA for making 
it difficult for industry to plan ahead and invest in 
innovative research and development.
    Legislation to improve transparency and accountability in 
technology acquisition spending by TSA cleared the House 
unanimously last December. This legislation and a companion 
bill introduced by our colleague, Senator Ayotte, and 
cosponsored by Senator Blunt have been referred to this 
committee, and I hope the Administrator can comment on these 
bills and ongoing acquisition challenges.
    Mr. Chairman, as we consider TSA's use of its resources, I 
also want to note my concerns about recent increases to the 
passenger aviation security fee adopted under the Bipartisan 
Budget Act of 2013. This Act, which was drafted without 
authorizing committee input, raises the passenger fee on July 1 
to $5.60 per passenger per one-way flight and diverts $12.6 
billion of the total fees generated over the next 10 years to 
deficit reduction rather than to aviation security.
    While I certainly support deficit reduction, I do not think 
that the air-traveling public should be singled out to pay for 
it. In addition, commercial airlines have expressed concerns 
about TSA's implementation of the increased fee, specifically 
the elimination of the one-way trip cap and the resulting cost 
increases for long, multi-leg, round-trip travel. I look 
forward to hearing clarification from the Administrator on 
exactly how the TSA will implement this fee change.
    I am also looking forwarded to discussing the efforts that 
TSA is undertaking in the surface transportation and maritime 
sectors.
    One TSA program that has come under increased scrutiny 
recently is the Transportation Worker Identification 
Credential, or TWIC, program that was referenced by Senator 
Warner earlier. Recent reports from the Government 
Accountability Office have raised serious questions about the 
effectiveness of this program, and I would like to hear 
Administrator Pistole's suggestions on how the TWIC program can 
be improved.
    I am also interested in hearing the Administrator's plans 
for TSA to carry out its mission as the lead Federal agency for 
all transportation security matters regardless of mode. I know 
that in response to the recent shooting at LAX, TSA has reduced 
the percentage of VIPR teams assigned to surface transportation 
security from 70 percent to 50 percent, and I would like to 
know whether the Administrator thinks this reduction will have 
any negative consequences.
    Mr. Chairman, again, I want to thank you for holding this 
hearing. Thank you to Administrator Pistole for being here 
today. And I look forward to the opportunity to ask questions.
    Thank you.
    The Chairman. Thank you, sir.
    I want to make my opening remarks.
    Actually, it occurs to me, Senator Barbara Boxer, that you 
and I were the only two people on this committee before 9/11.
    Senator Boxer. I think that is right.
    The Chairman. I think that is right, yes.
    Senator Boxer. I think that is accurate. We were together--
--
    The Chairman. Yes.
    Senator Boxer.--that morning.
    The Chairman. Yes.
    Senator Boxer. Remember?
    The Chairman. Yes.
    Senator Boxer. You grabbed my hand. We ran down the stairs.
    The Chairman. Yes. Yes, I also remember--this is off the 
record.
    [Laughter.]
    Senator Boxer. No, we are just--talk among yourselves.
    The Chairman. I remember John Kerry--I said, come on, John. 
Bill Nelson--we were having this Democratic leadership meeting, 
before they pitched me out--he is not laughing.
    [Laughter.]
    The Chairman. Sort of laughing.
    And, you know, we--boom, there was the Pentagon, and we 
were looking right at it, because there was one of these huge 
windows. And I said--and Bill Nelson and I took off in my car, 
and we went a bunch of sort of phony secure places.
    Senator Boxer. Oh, so Bill was there?
    The Chairman. Yes, Bill was there. But John Kerry was also 
there. And he was going down the stairs. I said, John, come 
with me, let's get out of here. He said, no, I am going to go 
back to my office.
    So maybe he was working on the Middle East. I don't know.
    Senator Boxer. Who knows?
    The Chairman. Yes.
    Anyway, in the wake of those attacks on September 11, 
Congress worked on several fronts very fronts. The first bill 
that we passed embarrasses me to this day. We passed a bill 
allowing the CIA and the FBI to talk to each other. You could 
not do that before.
    You verify that?
    Mr. Pistole. A number of limitations, Chairman.
    The Chairman. OK. All right.
    To secure our transportation system, we created the TSA 
administration. That is where it came from. Barbara and Jay and 
a few others helped do that. The TSA was given the monumental 
task of protecting our aviation system, our ports, our rail 
lines, our pipelines, wherever those are, at whatever level, 
whatever map, however old, and our transportation system.
    Since its inception, this agency has dealt with conflicting 
mandates that have left it stuck between two very important 
goals: we have asked the TSA to promote speed and efficiency--
fast get-through for passengers, et cetera--while at the same 
time prioritizing safety and security. Now, these two don't 
necessarily fit very well together. They can, I suppose.
    And at the same time, the Agency has had to fulfill this 
vast--you have something like, what, 250,000 people?
    Mr. Pistole. No, that is the Department of Security writ 
large.
    The Chairman. That is Homeland Security writ--you are 
right.
    Mr. Pistole. We are just a portion of that.
    The Chairman. You have a bunch. Anyway, you have had to do 
all of this with limited resources. And as of our conversation 
yesterday, I am going to ask you a lot of questions on limited 
resources.
    I was Chairman of this committee's Aviation Subcommittee 
when the TSA was created, and I have watched it grow but also 
struggle at times to meet its mission. However, these ups and 
downs are becoming less common. This is partly due to a series 
of legislative reforms and, importantly, the strong and steady 
and consistent leadership of Administrator Pistole.
    Today, I believe our aviation system is safer than it has 
ever been. Since the TSA was created, we have had no successful 
air attacks on American soil despite several efforts to have 
that happen. We are also doing a better job at preempting 
dangerous people and goods from getting on aircraft. And better 
intelligence has resulted in real policy changes. This has 
allowed authorities to act faster than ever to guarantee 
travelers' safety.
    Now, these are big words to say and hard to do.
    Screening at American airports has also evolved and it has 
improved. The TSA is harnessing advances in technology while 
adequately balancing privacy concerns. And we are going to have 
a meeting on that later in the afternoon. As a result, we have 
seen shorter waiting times.
    And I remind our members that more than 99 percent of 
passengers move through security in less than 20 minutes, 
including Al Gore. That is a far cry from the days when 
security lines were, in fact, several hours long.
    A lot of credit for these changes goes to TSA's new risk-
based approach, which you initiated, an approach that is 
championed by you. How we refine and how we fund these risk-
based approaches will determine how successful we are in 
adapting to our dangerous security concerns.
    In the next decade, for example--and I want people to hear 
this--air travel is predicted to grow from 700 million a year 
to a billion people a year. How is it that we accommodate that 
and make that work without spending more money to handle that 
sheer volume?
    But there is a severe lack of urgency among many in 
Congress to invest in the security of other transportation 
systems, just in general. Across the board, from our ports to 
our rails, we are failing to make sensible investments that 
will ultimately make traveling publicly safer and save us money 
in the meantime. As a result, we have left vulnerable the 
security of our ports and surface transportation systems, which 
are all critical components of the TSA's mission and vice 
versa.
    While there is substantially less public focus on these 
areas, these systems have been the target of terrorist plots. 
An attack on a major port or in a crowded transit system could 
be as devastating as an aviation incident easily.
    Even in aviation, where we are focusing the bulk of our 
resources, more work must be done. I continue to be concerned 
about the gaps in general aviation security.
    Now, I am not going to take off, as I would like to do, on 
general aviation because they are not doing very much at all, 
and they get a free ride, and they ride in huge planes that 
could be carrying Semtex and all kinds of other things, but 
they won't let anything happen to them. You say that they have 
indicated they have made a few improvements, but I am 
unimpressed.
    Recent incidents have further raised important questions 
about the security of our airports themselves. In November, 
there was a tragic shooting at Los Angeles International 
Airport. One TSA employee was killed, and seven others were 
injured. Last week, the famous teenager thing, and we are all 
trying to speculate on how he made it 9 hours up in a wheel 
casement which I think was 50 degrees below zero. In any event, 
he survived, so that is a happy ending. But it is not a happy 
story, because he got into the airport, into the airplane, and 
nobody noticed.
    In the 13 years since TSA was created, we have learned that 
transportation issues are not becoming easier to overcome. That 
is because our world is becoming much more complex, and you 
know what I mean by that. One of the only ways we are going to 
meet these challenges is to provide the TSA with the resources 
that it needs to get its job done. Nothing in the world is 
plainer or truer to me. And, yes, we probably won't do it 
unless things change, and then something awful will happen, and 
then we will probably do a little bit but not enough.
    To improve the overall security of our transportation 
system, these resources must be allocated wisely across 
aviation and surface transportation programs.
    The men and women of the Transportation Security 
Administration have done far more than they receive credit for. 
And if there are any watching or listening, let them hear that. 
They are taking care of us, and it is too often a thankless 
task with few good options and too few resources.
    So that ends me.
    Barbara, are you sure you don't want to make an opening 
statement?
    Senator Boxer. No, I just have questions.
    The Chairman. OK.
    Senator Boxer. Thank you, though.
    The Chairman. Well, then why don't we start with you on 
questions, and then we will go to----
    Senator Boxer. Is that OK with everybody?
    The Chairman. Yes.
    Senator Boxer. It is OK?
    The Chairman. It is OK with me.
    Senator Boxer. All right. Thank you.
    The Chairman. And John comes before I do, so----

               STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Is it OK if I--thank you.
    Well, I just want to thank our Chairman and our Ranking 
Member, not only for their leadership on this but also today 
raising two issues that happened in California: the tragic 
shooting at LAX of a TSA officer--it just happens to be the 
entrance that I go to very often when I fly to Washington, and 
I see that spot. And I saw it when we had roses all over the 
floor there. It is just unbelievable, what happened. And the 
second one, which was this terrible breach of security in San 
Jose.
    So I really want to, before I get into that, just thank you 
for two things.
    You know, sometimes you come here and you are pummeled, so 
I wanted to thank you for the PreCheck system. I want to say, 
it means so much to me, because for years I was begging TSA to 
do this. Because it means, as we look for the needle in the 
haystack, right, we are getting rid of a lot of those needles 
that we don't have to look at. And it makes your job really 
easier. And it really makes it better for people. People are 
thrilled. They really are. And I talk to them all the time. So 
thank you for that.
    I want to also thank you for this report, ``Enhancing TSA 
Officer Safety and Security.'' It came out after this tragedy 
at LAX.
    So I don't want to ask--we would have to be in a classified 
setting. I don't want you to go into how you are changing 
things, but let me just get a ``yes'' or ``no'' answer.
    Are you working very closely in Los Angeles at LAX with the 
other security forces there--the L.A. people, the LAX security 
people? Because it is key; you have to be on one page. Are you 
coordinating?
    Mr. Pistole. Yes, Senator. We work very closely with, they 
are called LAWA, the police chief, Pat Gannon, and his 
officers, to ensure that we have as seamless as possible a 
response to another tragedy like this if it may happen.
    Senator Boxer. And if there are any problems in that 
regard, in terms of the cooperation, will you let me know? 
Because, to me, that is the key.
    Mr. Pistole. Yes, there----
    Senator Boxer. You have to mobilize all the resources. That 
was a mess. People were just not around. Passengers were just 
running, didn't know in which direction. No one was in charge. 
It was really a very bad situation.
    So this requires your attention. And I am assuming it has 
gotten your attention.
    Mr. Pistole. It very much has. I have been to Los Angeles, 
including the day after the shooting, November 2----
    Senator Boxer. OK.
    Mr. Pistole.--and then a number of times since then.
    Senator Boxer. Good.
    Mr. Pistole. Gina Marie Lindsey, the Airport Director, met 
with the Mayor, a number of people, to ensure that we are doing 
everything we can to address situations like that.
    Senator Boxer. OK.
    And my last question has to do with that incident that was 
raised by my friends here. San Jose Airport, the early hours of 
April 20, a 15-year-old boy was able to breach the perimeter 
fence, climb unnoticed into the wheel well of a parked 
aircraft.
    And we are all thankful that this child survived the 5-hour 
flight, but this situation, we can just use our imaginations. 
If a 15-year-old kid can do this, who else can do this? I don't 
have to go into detail. So this layered defense is critical. 
Obviously didn't work.
    And let me tell you what really, really concerns me. Three 
weeks before this security breach, the TSA completed a 
comprehensive, 3-month inspection of San Jose Airport. And what 
did you find?
    And I would ask unanimous consent to put this in the 
record.
    The Chairman. It is done.
    Senator Boxer. You found that they were in compliance on 
all counts, including a review of the perimeter security 
through physical barriers and electronic access control 
systems. They passed this.
    Now, it is an 82-hour inspection. And, in your own words, 
``San Jose Airport was found to be in compliance with its 
security requirements for perimeter systems and measures, 
including the fence line.'' And then you go into everything 
that was done.
    What happened here? What are people telling--I am sure you 
called them in and said, huh? Are you kidding? This is a 
nightmare. What did they say?
    Mr. Pistole. Yes, so we are obviously following up on that, 
Senator. As I think you and everyone----
    Senator Boxer. Why are you just now following up on it? Why 
didn't you follow up on it the next morning?
    Mr. Pistole. Oh, no, we did. We did that night. Well, as 
soon as we learned that there had been a stowaway. We have been 
working that almost nonstop since then to find out exactly what 
happened, what the airport authority who has the responsibility 
for perimeter security--we, of course, work with them in terms 
of the airport security plan to say----
    Senator Boxer. No. You are not----
    Mr. Pistole.--here is what----
    Senator Boxer.--answering me. I am sorry. You found them in 
compliance 3 weeks before this happened.
    Mr. Pistole. So there----
    Senator Boxer. And it is not about a stowaway. It is 
about--it is not about a stowaway. It is about the fact that 
someone leaped over that fence and got onto a plane. What if it 
was someone else?
    So I don't understand. I just think you are too calm about 
this. I don't understand. I want to know, what are you doing 
about this?
    Mr. Pistole. So we are working with the airport, obviously, 
in our regulatory capability. We have the ability to fine the 
airport for allowing this to happen, because it is an egregious 
violation of the airport's perimeter.
    Senator Boxer. So you think it was a failure of their 
personnel, not their fencing or everything that you checked.
    Mr. Pistole. So, as you know, with 450 airports, there is 
no one-size-fits-all for each airport, so we inspect each one 
to assess, for that location, is the perimeter fencing--along 
with a number of other things. We actually did have two 
findings unrelated to the perimeter security.
    Their fencing was in fine shape, but as at least one prior 
Secretary of Homeland Security said, ``show me a 15-foot fence 
and I will show you a 16-foot ladder.'' So there is no perfect 
solution, so what we do is try to buy down risk in a measured 
fashion that allows us to make sure that we are doing 
everything possible.
    The fact is there was no CCTV coverage showing where he 
actually went over. We know what he said, where he went over 
the fence, and then what he did, as you described.
    Senator Boxer. OK. Are you concerned that your organization 
cleared this airport just 3 weeks before and said they were in 
compliance, including physical barriers and electronic access 
control systems?
    Mr. Pistole. So I would like to draw a distinction between 
what our regulatory compliance work is to say, they have the 
systems in place; the question is, do they work at every 
instance? And there is no 100 percent solution here, Senator, 
as you know. So we can build fortresses around airports for 
access----
    Senator Boxer. But where is the layered defense? What is 
the layered defense here?
    Mr. Pistole. So there are a number of opportunities. There 
could be armed officers or with canines out patrolling. There 
could be better CCTV coverage. There could be a second fence in 
some situations. You can look at Ben Gurion Airport to see what 
they do. That is----
    Senator Boxer. Well, let's do it.
    I don't want to take any more time. I just wanted to say 
this. You cleared them, and that is troubling to me. Why didn't 
you know that they didn't have the dogs? Is something wrong 
here?
    I am very worried about this, because it isn't enough to 
fill out a piece of paper and say, ``Check.'' This is really 
serious business--really serious business. What if it was 
someone else with an explosive----
    Mr. Pistole. Absolutely.
    Senator Boxer.--that got on that plane?
    Hey, this is bad news. And I just would like not to 
continue this conversation now, A, because of my colleagues' 
getting probably very annoyed with me because I have gone over, 
but, B, I think we need to meet in a different type of 
setting----
    Mr. Pistole. I would be glad to do that.
    Senator Boxer.--to find out what the heck is going on here. 
Because I don't want this happening at anybody else's airports. 
And I just don't feel the sense of urgency in your voice that I 
would like to hear.
    Mr. Pistole. So, thank you for that comment, Senator. I try 
not to be too over-the-top. I try to be measured in what I do.
    And I think that what we do is measured in terms of--we 
could require airports to do much, much more. The question is, 
who pays for that? And if Congress doesn't fund us to fund the 
airports, then that is an unfunded mandate for the airports.
    So we try to work in partnership as best we can to buy down 
risk and to do what we can to try to prevent risk, but not try 
to eliminate risk.
    Senator Boxer. OK. I get it. Don't throw it away from the 
fact that you cleared these people and that is wrong. And there 
ought to be----
    Mr. Pistole. I respectfully disagree, Senator----
    Senator Boxer.--an explanation.
    Mr. Pistole.--because I think if you go into detail as to 
what we are doing in terms of clearing, I think you are drawing 
the wrong conclusion from why we are, as you say, clearing.
    We are assessing the airport security program. If it is 
done to our standards, then we will say, yes, you are doing it 
to our standards. It is not a guarantee that nothing bad will 
ever happen. So if that is what you are getting to, if you are 
looking for a 100 percent guarantee, that is not going to 
happen.
    Senator Boxer. I am looking for a layered defense----
    Mr. Pistole. Which we have. Which the airports have.
    Senator Boxer. Well, no. Did not----
    Mr. Pistole. It is not a guarantee 100 percent, ma'am.
    Senator Boxer. Did not happen. This is serious business.
    Mr. Pistole. I agree.
    Senator Boxer. I don't think you are taking it that 
seriously.
    Mr. Pistole. I disagree.
    Senator Boxer. That is fair enough.
    Mr. Pistole. Thank you.
    Senator Boxer. I still like you.
    Mr. Pistole. I like you, too. We disagree.
    The Chairman. Thank you, Chairperson Boxer.
    I call now upon Chairman Thune.
    Senator Thune. Thank you, Mr. Chairman. I like you and 
Senator Boxer and Mr. Pistole.
    [Laughter.]
    Mr. Pistole. Senator.
    Senator Thune. I have a TWIC question. You heard Senator 
Warner's statement about the problems with TWIC, specifically 
whether the background checks are robust enough and are 
refreshed often enough to identify those who represent a threat 
to our transportation infrastructure. And I am just wondering 
how you would respond to that critique.
    Mr. Pistole. No, I agree with Senator Warner that the 
tragedy at the Norfolk Navy Yard was very unfortunate.
    I think there is still some uncertainty as to the facts, 
whether the shooter actually displayed the TWIC card to gain 
access, which we know a TWIC card does not grant access to a 
naval base; it grants access to ports. And I would defer to the 
Navy, in terms of their investigation, as to whether he 
actually displayed that card.
    That being said, in terms of the background, we have been 
working on some of the legal aspects of what we are authorized 
to consider, both from a policy standpoint but also from a 
statutory standpoint. So I would look forward to working with 
the Committee in trying to tighten up some of those gaps which 
I believe were identified as a result of this tragic shooting.
    Senator Thune. Are we routinely checking TWIC holders 
against relevant criminal and counterterrorism databases to 
mitigate the risk that these people are getting access to 
sensitive locations?
    Mr. Pistole. We do as to the terrorism database. So if 
somebody is a TWIC card holder and they are placed on the 
terrorism watchlist by another agency, then that information is 
pushed to us and we are made aware of that, and then we take 
steps to revoke that TWIC card, for example.
    If it is a criminal arrest or something, as Senator Warner 
testified, that is not pushed to us. And that is one of those 
gaps.
    So we know that about a third of all the TWIC card holders 
do have criminal histories, but that is acceptable under the 
statute. And so that is something--I mean, these are dock 
workers, these are port workers, in large part.
    But that criminal information is not, or that updated 
information, not pushed to us. So it is only done at the 
issuance of the card and then on a reissuance, say, 5 years 
later.
    So that is something that would be beneficial, in terms of 
buying down risk, to say if somebody had been not necessarily 
arrested but at least convicted, particularly of a felony, 
particularly of a violent felony, that we should get that 
information so we can take appropriate action, similar to the 
terrorist watchlist.
    Senator Thune. OK.
    As I noted in my opening statement, the Bipartisan Budget 
Agreement of 2013, which, again, I would add, was drafted 
without authorizing committee input, increased the TSA 
passenger security fee from $2.50 per enplanement with a cap of 
$5 per one-way trip to a flat $5.60 per one-way trip beginning 
July 1 of this year.
    And we, of course, hear general complaints about the 
increased cost of travel, but we have been hearing concerns 
regarding TSA's implementation of the act and specifically that 
a multi-leg, roundtrip itinerary could be subject to much 
higher fees than even the statutory increase would seem to 
indicate.
    And it is my understanding, and correct me if I am wrong, 
that in response to industry inquiries, TSA suggested that a 
single roundtrip with five or six legs could be treated as five 
or six one-way trips. And so you could generate roughly $30 in 
fees even though the previous $5 cap per one-way trip would 
have limited those total fees to $10. And I am just curious if 
that is accurate.
    Mr. Pistole. That is not my understanding. Obviously, our 
lawyers have been working on this. My understanding is it is 
$5.60 per one-way, and as long as that one-way trip is not 
interrupted by more than 4 hours in a transiting airport, then 
it is still considered one-way. So let's say you flew from 
Dulles to O'Hare to LAX, as long as O'Hare is less than 4 
hours, Dulles to LAX is still one-way and that is $5.60.
    Now, the roundtrip portion, if--did you want to go into 
that?
    Senator Thune. Yes.
    Mr. Pistole. On the roundtrip, we have not taken the 
position that that existing $10 cap applies because that is not 
what the Bipartisan Budget Act said. It doesn't address the 
cap. And so we are just reading the statute and saying it is 
$5.60 one way, so it is $5.60 the other way, so that is $11.20 
rather than $10.
    Senator Thune. So there is no departure from the precedent 
as to what constitutes a one-way trip today?
    Mr. Pistole. There is a different--the statute is 
different. The existing talks about enplanement, and I think 
there has been some discussion about that. But as I outlined, 
that is my understanding. And I will take that back with our 
lawyers to make sure that is consistent.
    Senator Thune. If you would, that would be great. Because 
it sounds like what TSA is proposing is to treat each 
enplanement as a one-way trip, whereas previously it was 
recognized that a one-way trip could include several 
enplanements.
    Mr. Pistole. That is correct.
    Senator Thune. OK. Well, you could read that new law, then, 
as simply replacing the $5 cap per one-way trip----
    Mr. Pistole. Right.
    Senator Thune.--with a $5.60 cap per one-way trip, which 
would still be a significant increase for people who have only 
been paying $2.50 for a one-way trip with a single enplanement.
    Mr. Pistole. Yes.
    Senator Thune. I would appreciate if you could get some 
clarification to us on exactly how you intend to implement 
that. Because we are hearing, obviously, some concerns about 
that.
    Mr. Pistole. OK.
    Senator Thune. I see my time has expired, Mr. Chairman, so 
I will turn it over back to you and let some other people ask 
questions.
    The Chairman. Good. I don't mean ``good.'' I should just 
say ``thank you.''
    When we talked yesterday, Administrator Pistole, I told you 
that I am overwhelmed with the lack of possibilities in the 
future for our safety and for all kinds of inventiveness and 
STEM and research and everything because of the lack of 
revenue. And there are people here who will do anything other 
than raise revenue.
    I remember going to a hearing at Chicago airport with Dick 
Durbin and Mayor Daley--Mayor Daley at that time--because they 
had eight runways, but two of them crossed, and they have to 
take out some public housing to build in room for another 
runway. And so the point is it is in the middle of the city, so 
to speak, and there it is with no more space whatsoever.
    Now, I go from the 700 million to 1 billion passengers and 
I try to contemplate, what in heaven's name is O'Hare going to 
do? Or Santa Fe, New Mexico, or Albuquerque, you know, much 
less Charleston, West Virginia.
    At some point, if you don't have resources, you can't 
testify that things are safer. You can say you are doing your 
best. And you are. And I think you are the perfect guy for this 
job, and I have told you that, because you are very 
workmanlike. You don't do it in a flashy sense, but you get it 
done.
    Mr. Pistole. Thank you.
    The Chairman. But do you believe that we have resource 
problems?
    Mr. Pistole. Clearly, with the expanding passenger growth, 
we will be challenged to keep up with those passenger loads at 
the same throughputs and same level of security and efficiency. 
So, clearly, that is an issue for us.
    I believe, that being said, that through our risk-based 
security initiatives, we are making significant strides in both 
buying down risk and being more efficient. But when you are 
talking about those multiples, going from 700 million to a 
billion----
    The Chairman. That is what I am talking about.
    Mr. Pistole.--that makes it a challenge, as it does for 
each airport, as you described, in terms of their physical 
infrastructure and their ability to process people through.
    For example, LAX, on busy days in the summer, they will 
have over 100,000 people go through their 9 terminals. That is 
a lot of people, and it creates a lot of challenges for 
everybody.
    The Chairman. Second part of my question. We discussed this 
yesterday. Could you please tell us where you could 
immeasurably improve security on your watch if you did have 
more resources?
    Mr. Pistole. So I think there are two parts to that, 
Chairman. And thank you.
    I think the one is expanding the risk-based security 
initiatives. And so we were at 40 airports last year, 118 now, 
and up to 600 TSA PreCheck lanes, either full-time or part-
time. I see the future of TSA being the majority of passengers 
going through expedited screening, either TSA PreCheck or one 
of our other programs. We have 75 and older, 12 and under, 
things like that.
    I also see that same thing being applied to checked bags 
and carry-on bags. I mentioned the 1.5 billion, you know, that 
we screen every year. So that is something that I see.
    The challenge becomes, what is the point of--the return on 
investment. So at what point does the number of passengers 
overload the system for our efficient handling with the best 
security? The more prescreening we can do of passengers, cargo, 
and baggage, the better job we can do of buying down risk in a 
measured way to say, yes, we have high confidence that this is 
not an underwear bomber or there is not a toner cartridge bomb 
in this package.
    The bottom line is the threats are real. I provided a 
classified briefing for some of your colleagues in the House 
yesterday going over some of the latest intelligence. And it 
concerns me greatly, about what terrorists are continuing to do 
in terms of focusing on aviation, particularly Western 
aviation.
    So, given all that, yes, we have to work together with 
airlines, airports, industry, passengers, and particularly with 
the Congress to make sure we have the resources to do the job, 
to make sure there is not another 9/11 or some other type of 
attack.
    The Chairman. And, you know, a problem that we all have--
and I would just say this to my friend, Senator Thune. I say it 
all the time, but it is just so inbred that it is pointless. 
You can't give your own views, as director of TSA, when you 
testify. It has to be approved by the Office of Management and 
Budget. And if they think you are going out too far this way or 
too far that way or you are extending yourself to some point of 
vulnerability, then you can't say it.
    I really resent that. I don't resent you; I resent that. 
For heaven's sake, if we have these hearings and we are trying 
to find out what we need to do, you have to be able to say 
where you are hurting and where you are not. And if OMB doesn't 
like it, that is too bad. What you will get is much more 
support from those of us on this committee because we will know 
that you are talking to us straight.
    Now, you have edged into some subjects, and I congratulate 
you for that. But, you know, then you talked about all the 
PreCheck and, you know, expedited screening procedures. The 
more you do that, in order to cut down on time, the more you 
put at risk certain security measures, potentially. Somewhere, 
there is a cross-line there. And I don't know where it is, but 
I worry about that.
    And my time is up. So, Senator Scott?

                 STATEMENT OF HON. TIM SCOTT, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator Scott. Thank you, Mr. Chairman. Thank you very much 
for holding this very important hearing on our security through 
our transportation area.
    Administrator Pistole, thank you for your dedication to a 
very difficult task, as we listen to the folks on both sides 
cross-examine you, in many ways. I am going to provide more of 
that in a second here, but we do appreciate your public service 
to our Nation.
    Mr. Pistole. Thank you, Senator.
    Senator Scott. Yes, sir.
    We have heard the Chairman and others talk about the need 
for speed and efficiency, safety and security, and the use of 
technology. And the final point that he was talking about is 
the lack of revenues or the limited resources that we have.
    My question really comes down to, what is your takeaway 
from some of the challenges of using technology that was either 
unproven or just inconsistent with the environment that it 
would be put into?
    I think specifically about the puffer machines, $160,000 
each, now probably sitting in a warehouse somewhere. I am not 
sure what the return on the investment is on that. I think 
about the full-body scanners, 800 of them now sitting 
somewhere, as well, perhaps not being used as effectively as 
possible. Or the SPOT program that, of course, well-intentioned 
as it was, had a $200 million rollout cost, perhaps not 
performing and getting accomplished what we would like to see 
accomplished.
    My question to you, Administrator Pistole, is, as you look 
at those rollouts or those uses of technology, some untested, 
just some didn't work out well, what is your takeaway for how 
we look at the limited resources, a lack of revenues, and yet 
we have spent a lot of money doing things that just haven't 
worked very well?
    And part of the challenge that I see is that some of these 
things came out without any cost-benefit analysis being 
performed before we used the very limited resources in a fairly 
ineffective way.
    Mr. Pistole. Yes. And thank you, Senator. And I wish I had 
a nickel for every time the puffer machines have been brought 
up with me, because that was an inartful, ineffective rollout 
of an unproven technology in the actual airport environment. It 
preceded my time, but I am responsible for it now.
    But I think one of the lessons learned from there, for 
example, was we did not have a testing facility to really test 
equipment before deployed. And so we created the Transportation 
Security Integration Facility just south of Reagan Airport, 
which I invite all Senators to come out and visit anytime, 
where we test with the latest technology before we deploy. So 
that is one of the lessons learned.
    Two is on the acquisition process that a couple Senators 
have mentioned. We have learned a lot over the 12 years since 
TSA was created on how to do acquisition on a more timely 
basis, a more informed basis, more transparent basis, and I 
think we have made great progress in that.
    And so we are working with industry to acquire technology 
that, one, helps buy down risk, but, two, does it in a cost-
effective way, and not only here in the U.S. but working 
internationally, because we are trying to harmonize 
international standards. And we realize that as other countries 
acquire the latest technology that is commensurate with ours, 
that buys us down risk across the board. Because we know that 
since 9/11 all the threats to aviation have emanated from 
overseas. So we want to make sure our overseas partners are as 
well-equipped to buy down risk as we are.
    So I think we have learned several lessons and we have 
tried to be good stewards in these last 3 years. So, for 
example, our budget from Fiscal Year 2012 to 2015 has gone down 
by over $500 million. So we have had to become more efficient, 
we have had to buy down risk in a way that recognizes there are 
limited resources, so let's make sure we make wise investments.
    Senator Scott. I know you have answered this question in 
part previously, with Senator Warner's comments, Senator 
Boxer's comments on the TWIC program, or it may have been 
Senator Thune's comments on the TWIC program.
    Looking into the future of the TWIC program, what real 
changes, substantial changes, do you see?
    And I will say that, speaking from a South Carolinian's 
perspective, residing in the Charleston area and thinking about 
the beauty of our coastlines and the economic contributions of 
our ports and the vigilence that it will take for us to make 
sure that we secure ourselves from the ports perspective, what 
do you see happening?
    Mr. Pistole. So I think the TWIC card is a good idea in the 
sense of identifying people who have access to sensitive areas 
of ports, so we are doing a security threat assessment to know 
we are not allowing terrorists to get access to a port. And 
that is the bottom-line purpose of TWIC.
    That being said, the deployment of card-readers in high-
risk ports has been slow for a number of reasons. We work very 
closely with Coast Guard, which has that responsibility. I 
understand they will have a TWIC card-reader rule out sometime 
early next year.
    So we work very closely in partnership with the Coast Guard 
to say, how can we buy down risk jointly? Because, obviously, 
TSA is not at the port, we are not reading the cards, we are 
not providing access to the ports and all the things; we just 
do the security assessment on the front end.
    Senator Scott. And I know I am out of time. I may contact 
your office later on an additional question that I have on TSA 
PreCheck and the application by different airlines.
    Mr. Pistole. OK. Look forward to it, Senator. Thank you.
    Senator Scott. Thank you.
    The Chairman. Thank you, Senator.
    Come on, big guy. It is your turn.

                STATEMENT OF HON. CORY BOOKER, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. Thank you so much, Mr. Chairman.
    And the thoroughness of my colleagues, many of the 
questions I had have been addressed, maybe not as sufficiently 
as I would like.
    And I would enjoy to have a conversation in a more 
confidential environment, given a lot of the threats that we 
obviously see there, when you see things that happen like they 
did in California. And, obviously, someone stowing away in a 
wheel, I know that it rises to your level of concern.
    Mr. Pistole. It does.
    Senator Booker. You guys have been doing a better and 
better job and a good job. But if better is possible, even good 
is not enough. And so we constantly have to see us getting 
better.
    Questions were asked, which I appreciate, about the 
increased funding that you have already gotten and how that 
might be being applied. I am happy to hear that there are some 
caps that our residents who often have to take multiple--like 
some of my colleagues, in fact, when they fly, have to take 
multiple links, and that those will, if I understand it, never 
be more than that $5.60 and $5.60, depending on if a roundtrip. 
Is that correct?
    Mr. Pistole. That is generally correct. I mentioned that 
one 4-hour exception, so if you are in a transiting airport for 
more than 4 hours, then it would be considered----
    Senator Booker. That is on a scheduled flight. So if I have 
a layover that ends up because of weather being 5, 6, 7 hours?
    Mr. Pistole. I am not sure about that, Senator. I will have 
to look into that.
    Senator Booker. I would love to know that.
    Mr. Pistole. Yes.
    Senator Booker. And so, since a lot of the areas I wanted 
to discuss have been discussed, I would like to just pin down 
on the surface transportation security, which is something that 
deeply concerns me.
    Because in New Jersey we have a lot, with such a dense 
area, we have a lot of vulnerabilities. We house many chemical 
manufacturing sites and facilities in our state, and I worry 
about a breach in security there. It may not end up just being 
a person stowing away but could end up causing extreme havoc 
and untold damage on life and property.
    And so, this increased funding that you get, you know, what 
are you doing, what additional steps are you taking now to 
secure transportation sectors?
    Mr. Pistole. So, of course, because we don't have the 
frontline responsibility for surface transportation--for 
example, Amtrak Police does, and we work in concert with them--
or pipelines or the rail, either passenger or freight, what we 
try to do is be a force multiplier for either those state or 
the local authorities that have that responsibility.
    For example, Port Authority of New York/New Jersey, we work 
very closely with them to ensure that targets have been 
hardened. For example, if we went into a classified setting, I 
could tell you exactly what we have done over the years to 
harden particular vulnerable targets in your state.
    Then, how can we do things that would enhance, for example, 
training; providing our VIPR teams to high-profile events, such 
as the Super Bowl that was just held. So we have VIPR teams 
there that helped, we believe, buy down risk as a visible show 
of force.
    So there are a number of things we do to supplement those 
frontline efforts.
    And recognizing that only about 3 percent of our budget is 
dedicated to surface transportation. Ninety-seven percent is on 
aviation because that is the way we are funded. So----
    Senator Booker. And, Administrator, just given that, if you 
had more funding, what more would you do?
    Mr. Pistole. Well, there are a number of things we could 
do, in terms of provide more LEO-reimbursable funds to state 
and local police and Amtrak and others, either for additional 
training or for overtime for officers who may want to have a 
more visible presence, like at Penn Station, Newark, or 
whatever.
    We could do more training. We could do more infrastructure 
hardening of targets. There are a number of things we could do. 
But that is not where we are right now, so we do what we can, 
again, as supplement to those frontline resources.
    Senator Booker. And, Mr. Chairman, I am going to stop 
there. I am grateful for the Administrator. He has a very, very 
difficult job. I know----
    The Chairman. You have plenty of time.
    Senator Booker. I know I do, but I want to stop there, but 
just encourage us to perhaps get into a confidential setting, 
because some of my questions about specific areas are 
important. Or maybe that is something we can do individually.
    The Chairman. A secure setting.
    Senator Booker. A secure setting, a location to be--a 
secure location.
    The Chairman. We are all going to meet in Kelly Ayotte's 
office.
    [Laughter.]
    The Chairman. And you are next.

                STATEMENT OF HON. KELLY AYOTTE, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Ayotte. Chairman, we might need a little more space 
than my office. But I think we should meet in your office. That 
would be even better.
    Thank you for being here.
    Mr. Pistole. Senator.
    Senator Ayotte. I appreciate you have a challenging 
position but very important leadership position for the 
country.
    And I wanted to ask you about a bill. We have seen some 
examples in the past of some challenging--and I won't just pick 
on TSA for this, but one of the challenges I think that has 
been across the government is acquisition challenges. And some 
of those acquisition challenges, and particularly in the IT 
area, where we have invested but we haven't really been able to 
get the outcome that we want or the system that has been 
effective for us.
    So I have introduced a bill that actually passed the House 
416 to zero. Now, that is a rare moment, in and of itself. The 
bill is called the ``Transportation Security Acquisition Reform 
Act.'' The legislation would just essentially implement a 
number of good-government reforms to help streamline TSA's 
acquisition process, have greater transparency, and 
accountability to the public.
    So some of the things it would do is develop and share with 
the public, for the first time, a strategic multiyear 
technology investment plan; share key information with Congress 
on technology acquisitions, including cost overruns, delays, or 
technical failures, within 30 days of identifying the problem 
so we can work with you; better manage and utilize the 
inventory; and report goals for contracting with small 
businesses.
    Have you had a chance to look at the legislation?
    Mr. Pistole. I have, Senator, and----
    Senator Ayotte. What do you think of it?
    Mr. Pistole.--yes, I think it is generally good. We have 
worked with Senator Richard Hudson and his staff in the House, 
one of the sponsors there. And I think, one, it does a couple 
things. It recognizes that we have made some progress over the 
last few years to improve the process, which was in many ways 
broken. And so we are taking those steps.
    There may be some technical language that we would want to 
work with the Committee on to make sure that we are achieving 
the outcomes that are intended and that there aren't some 
unintended consequences, in terms of some reporting 
requirements.
    But, overall, I applaud the bill and support it, in terms 
of what I have seen. So----
    Senator Ayotte. Fantastic. I appreciate that. And, you 
know, I look forward to us addressing that bill in the 
Committee, especially since it had unanimous support in the 
House. I am glad to hear your endorsement of it and look 
forward to working with you on this important issue.
    I also wanted to ask you about the issue of exit-lane 
staffing, because there have been some concerns raised to me 
that TSA may be walking away from staffing exit lanes at 
certain airports, in reliance on a provision that was included 
in last year's budget agreement that requires the agency to 
continue to perform those services. So, in other words, that 
this may be contradicting that, and that one of the arguments 
that is being made is that if an airport makes any changes to 
an existing exit lane, including infrastructure, then TSA won't 
continue to man that exit-lane position.
    So can you just help me understand the Agency's position on 
this and what is happening with regard to exit lanes?
    And, obviously, if an airport is willing to make 
investments in infrastructure that could actually improve the 
airport, I wouldn't imagine that would be or should be a factor 
as long as they meet your standards in terms of what kind of 
staffing would be present.
    So if you could help me with that----
    Mr. Pistole. Right. Thank you, Senator, because that is 
something--because of our reduced budget, we were looking for 
ways to save taxpayer money. And not staffing exit lanes, which 
we see as access points as opposed to security screening 
functions--we only do exit-lane staffing in about a third of 
the 450 airports currently.
    So, as we tried to get out of that business to save about 
$100 million a year, so a billion dollars over 10 years, what 
we found is there was a lot of opposition to that from those 
150, 160 airports that we do staff, because it would be 
basically an unfunded mandate on them.
    So what I see as the long-term solution, and I think others 
generally would agree, is that technology is, in most 
instances, the long-term solution to get both airports and TSA 
out of the business of humanly staffing those exit lanes.
    Senator Ayotte. Using, like, surveillance and technology 
or----
    Mr. Pistole. There are dozens of different technologies, 
including that, including doors, ``mantraps'' they call them, 
and different things, any number of things. But to work in a 
collaborative fashion to look at long-term, not just year by 
year.
    And so your specific question relates to the Bipartisan 
Budget Act, which had an effective date of December 1, which 
said if we were providing security staffing or exit-lane 
staffing as of December 1, then we are required to continue 
that.
    So if we weren't doing it December 1, then the question 
becomes--and this is what the lawyers are discussing. If it is 
a new exit lane or----
    Senator Ayotte. The lawyers are always involved.
    Mr. Pistole. Being a recovering lawyer, I can appreciate 
what they are doing. So it is----
    Senator Ayotte. I am, as well.
    Mr. Pistole. I appreciate that, and Senator Coats and 
others.
    So I think they are just trying to work out what is the 
best way forward as airports reconfigure. And is it collocated 
with a security checkpoint, or is it over there, where there 
are no TSA people? And so do we put somebody over there by 
themselves or two people?
    So I think, look, I want to find a solution to it that 
makes sense not just now but for long-term, and I think 
technology is the key to that.
    Senator Ayotte. I appreciate that. And, obviously, I think 
it makes sense that your agency is really communicating with 
the airports and coming up with a mutually acceptable solution. 
That would make a lot of sense.
    Mr. Pistole. We are communicating, but we might not always 
agree. But, yes, we are communicating, I think, effectively.
    Senator Ayotte. Great. Thank you. Appreciate it.
    Mr. Pistole. Thank you, Senator.
    The Chairman. Thank you, Senator.
    Senator Blumenthal?

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you, Mr. Chairman. And thank you 
for holding this hearing.
    Thank you for being here today.
    The Transportation Worker Identification Credential 
program. In your testimony before this committee back in 2011, 
you were asked, on a scale of 1 to 10, how you would rate the 
progress that has been made, or had been made by then, on the 
TWIC program. You put it at 3. What would be your grade today?
    Mr. Pistole. I would put it at probably a 6 or so, maybe 7, 
because it is achieving the purpose of buying down risk so we 
don't let terrorists have a credential that authorizes them 
access to a secure-area port. So that is continuing, and that 
is a good thing.
    I think where it still is lacking is the deployment of the 
card readers in high-risk ports around the country that allow 
those cards to be used as intended to verify the identity, so 
if it is you coming with your TWIC card, that Coast Guard and 
the port authorities who provide that staffing can look at that 
and say, yes, that is you, that is not a stolen card, it is not 
an outdated card. Because a flash pass doesn't do much, 
frankly.
    Senator Blumenthal. Is the obstacle to the remaining 
progress, whether it is from 6 or 7 to 10, one of resources or 
management? How would you characterize it?
    Mr. Pistole. It is a complex issue, as I am sure you know, 
Senator. So I would say resources, management, cooperation with 
ports, port workers, having a rule that people can buy into and 
accept, which the Coast Guard is working on. And, again, I 
think that is due to be published in the first of next year or 
something.
    Senator Blumenthal. On surface transportation security 
generally, where would you say we are most vulnerable right 
now? What keeps you awake at night on surface transportation?
    Mr. Pistole. Yes, so I am concerned about all the attacks 
that have taken place overseas in surface, whether it is the 
Madrid bombings, whether it is the London Tube bombings, 
whether it is the Moscow subway, whether it is trains in India 
and Pakistan. You know, we have had more killed in those 
surface attacks since 9/11 than we have in aviation on 9/11, so 
the nearly 3,000.
    So my concern is that one or more of those attacks, 
including perhaps a situation like in Mumbai, the active 
shooter scenario, could take place here. And we have good 
defenses in many ways, and I won't go into detail where I think 
those are, just for obvious reasons. But there is clearly, to 
the Chairman's point, with additional resources, additional 
things could be done to buy down that risk.
    So, given where we are today, I think we are as well-
positioned as we could be, recognizing, as you saw in your 
state, that a shooter can do something tragic in a very short 
amount of time and there is just no 100 percent guarantee. So, 
given what we have, where we are, I believe we are as well-
poised as we can be.
    Senator Blumenthal. And in order to achieve what you would 
regard as an acceptable level of security in surface 
transportation, do you have a ballpark figure and a length of 
time?
    Mr. Pistole. No, I don't, Senator. I would have to give 
that some thought. Because if you start with the major 
metropolitan areas and look at what is being done--for example, 
you know, between Connecticut and New York and New Jersey, 
there is a lot of great work being done to buy down risk on 
Metro-North or on the New York City Subway system or the MARC 
train, different--or, I mean, the PATH train and things.
    So there is a lot that is being done. If there were 
additional resources, could more be done? Sure. That is a 
question of, what is that return on investment for something 
that hasn't happened here? And so that is part of that public 
policy question of, what do we invest in something that may or 
may not happen?
    Senator Blumenthal. Let me ask you a question about the 
PreCheck program on air transportation. There are two separate 
lines in most airports.
    Mr. Pistole. Right.
    Senator Blumenthal. Is there any procedure for shutting 
down the PreCheck line and making everybody go through the 
regular check? Is that a----
    Mr. Pistole. We could do that. I am trying to envision a 
scenario where we would do that.
    Senator Blumenthal. Well, let me just tell you why I am 
asking. I encountered this situation myself, and I had reports 
of people telling me that the PreCheck line was, in effect, 
eliminated and everybody was going through just one line. And I 
don't know whether that is a situation that has come to your 
attention.
    Mr. Pistole. So, out of the 600-plus TSA PreCheck lanes we 
have around the country, out of 2,200 lanes around the country 
all together, about 300 of those are full-time, meaning they 
are open whenever the checkpoint is open. So about half of 
those are only open during the morning rush, afternoon rush, 
whenever that may be.
    It may be that you encountered a situation where, because 
of staffing levels and things, resources, we can't staff those 
full-time because there are only a few people, perhaps, going 
through. That may be what happened, but I would have to look 
into it specifically and would like to follow up on that with 
staff to figure out if that is what it was.
    Senator Blumenthal. Great. Thank you very much.
    My time has expired. Thanks for your testimony.
    Mr. Pistole. Thank you, Senator.
    The Chairman. Thank you, Senator Blumenthal.
    Senator Klobuchar, to be followed by Senator Coats.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much.
    Thank you, Administrator, for your good work. I think you 
have some great people in the Minneapolis-St. Paul Airport. You 
know----
    Mr. Pistole. Thank you.
    Senator Klobuchar.--it is one of our stellar airports, and 
we are proud of the work they do. And I know what hard jobs 
they have and what a hard job you have.
    You were just talking with Senator Blumenthal about the TSA 
PreCheck. And I support the expansion of PreCheck, but I am 
concerned that making the expansion without preparation could 
negatively impact the expedited screening process that you are 
supposed to get. And as your prepared testimony says, more than 
180,000 people have submitted applications at the 240-plus 
application centers nationwide.
    What is the screening process now, and how long does it 
take for the average application to be processed?
    Mr. Pistole. And just to update that, we have actually had 
now slightly over 200,000. And so it takes around 30 days or 
less, typically, to process that and then to issue a known-
traveler number, which that person then takes and enters into 
their passenger profile. So that is what we are looking at.
    And as more and more people sign up, either for TSA 
PreCheck or for Global Entry, then what we see as the expansion 
of either more lanes or more hours, to Senator Blumenthal's 
issue I believe, to expand the hours of operation that those 
TSA PreCheck lanes would be open.
    And I think the analogy to a supermarket checkout lane 
where, if you have 10 items or less, you go through that lane, 
and there may be 3 or 4 or 5 people in that lane, so it looks 
like a long line because there is only 1 person over in this 
lane, checkout lane, but if that checkout lane has a month's 
worth of groceries in 2 full grocery baskets, that is still 
going to take a lot longer than going through the 4 or 5 people 
ahead.
    So we have had some challenges in some airports at certain 
times, but the goal is to have TSA PreCheck lanes move quickly 
and efficiently with the best security and to try to get people 
through in, frankly, 5 minutes or less in the TSA PreCheck 
lanes.
    Senator Klobuchar. OK. And let me make clear, I have never 
been in a longer line than the Safeway in Penn Quarter, so none 
of your lines are longer than that. So thank you.
    Mr. Pistole. Good to hear, Senator.
    Senator Klobuchar. OK. So maybe not an analogy you want to 
keep using.
    [Laughter.]
    Mr. Pistole. OK. I will come up with a new one.
    Senator Klobuchar. Well, for some places.
    So the staffing levels at airports--and, I mean, again, the 
expansion is good, but we just continue to be concerned if it 
doesn't work.
    And for passengers, there is something going on at 
Minneapolis-St. Paul. I don't know if you heard about this. An 
advisory was issued for passengers to arrive two and a half 
hours early for domestic flights during peak hours. I had never 
heard of this before. And fewer security personnel was a reason 
cited for the need for them to arrive earlier.
    And there are people--I talked to the airport director--
there are people that have been missing their planes that had 
gotten there 2 hours earlier. And I understand this isn't 
strictly a TSA problem.
    Can you explain what you are doing to ensure there is 
sufficient TSA personnel?
    Part of it is that the flights are all leaving--suddenly we 
are a hub--in a certain time period, and literally they have to 
have people there two and a half hours early.
    Mr. Pistole. And I think you have identified the issue, hit 
it on the head. TSA obviously has some role in that, and we 
have addressed it with our Federal Security Director there, in 
terms of those times. I think if you found, many times, wait 
times at TSA PreCheck--or TSA lanes writ large of more than 20 
minutes, there have been a few, but that two and a half hours 
is exactly what you are talking about in terms of other issues.
    So, actually, Richard Anderson, the CEO of Delta, and I 
have spoken about this and looking at ways that we can both do 
things that will improve the efficacy, if you will, of that 
whole process. So there is a lot of----
    Senator Klobuchar. They need to space out their flights a 
little, as well, yes.
    Mr. Pistole. I would defer to them----
    Senator Klobuchar. OK.
    Mr. Pistole.--defer to them on that.
    Senator Klobuchar. That might be helpful.
    So, OK, TSA has been mandated to ensure that Transportation 
Worker Identification Credential enrollment, which is, as we 
know, a TWIC, activation, issuance, and renewals require no 
more than one in-person visit to an enrollment center within 
270 days. TSA has indicated that the reforms are under way but 
that full implementation of the one-trip requirement would not 
occur until the third quarter of 2014, which would be a year 
late.
    In November of last year, Senator Ayotte and I wrote you 
with a concern regarding the timeline for the implementation. 
You said that TSA is transitioning the TWIC database and card 
production system to the new TIM system. Can you give us an 
update? And what are you doing to accelerate the timeline?
    Mr. Pistole. So we have initiated the pilot programs for 
the one visit of TWIC. In Alaska, we have 9 or 10 locations 
where, because of the geographic, obviously, the size of 
Alaska, where TWIC enrollees can go in and just go in once, and 
then the card can be mailed or provided. And so that is 
working. We have been doing that for close to a year now, I 
believe.
    We are also doing that in Michigan, a similar area in terms 
of toward the Upper Peninsula, to look at some, again, remote 
areas and things to keep people from having to go in for that 
second visit. So those are working.
    The plan is to have it rolled out nationwide later this 
year. Yes, it was delayed from what we had hoped, but there 
were a number of challenges that I believe we have worked 
through, and so I am hopeful and confident that we will be able 
to roll that out later this year for one visit for those who 
choose to.
    Now, what we are finding is, even Alaska and the U.P., not 
everybody is taking advantage of that for whatever reason. They 
may live close to an enrollment center and so it is not 
inconvenient for them. But that is a personal choice they have.
    Senator Klobuchar. OK. Thank you very much.
    Mr. Pistole. Thank you, Senator.
    The Chairman. Thank you, Senator Klobuchar.
    Senator Coats?

                 STATEMENT OF HON. DAN COATS, 
                   U.S. SENATOR FROM INDIANA

    Senator Coats. Mr. Chairman, thank you.
    Speaking of lawyers, the Administrator and I are graduates 
of the same law school.
    The Chairman. No kidding.
    Mr. Pistole. Hear ye.
    Senator Coats. Does that disqualify me from asking tough 
questions or----
    The Chairman. Not if you root for the Pacers.
    Mr. Pistole. Ooh.
    Senator Coats. We do root for the Pacers, but we are in a 
perilous situation right now, as you know. As a former 
basketball player, you follow that.
    The Chairman. You were number one in your class and he was 
number two?
    Senator Coats. I think I went through school a little bit 
earlier than he did. And I was not number one in my class. I 
don't know about----
    Mr. Pistole. And I was not number two, so----
    [Laughter.]
    Mr. Pistole. Or number one.
    Senator Coats. Well, I just have two questions here, 
Administrator. Well, first of all, thank you for your service, 
first as Deputy FBI Director----
    Mr. Pistole. Thank you, Senator.
    Senator Coats.--with your outstanding record there, as well 
as your service here. And, gosh, you must have to get all kinds 
of questions and complaints every day about a certain line at a 
certain airport being backed up beyond a certain point, et 
cetera, et cetera, et cetera. So it is not an easy job, that is 
for sure.
    I wanted to ask you about exit alane monitoring, but 
Senator Ayotte asked that. I would just do a follow-up here. 
You did a pilot study, from what I understand, and did it 
identify a timeline or a solution, a list of possible 
solutions? And where do we stand on actually implementing this?
    Mr. Pistole. Yes, thank you, Senator. And so it really 
comes down to, again, each airport being unique and different 
airports seeking different solutions. So some are way forward-
leaning in terms of acquiring technology that could serve as a 
long-term solution, as opposed to staffing either by TSA or 
airport employees. And so we are trying to work with them as 
closely as we can, recognizing we don't have separate funding 
to either acquire the technology or to install it.
    And so I think the longer-term plan is working with each 
airport and to find a solution that makes sense that allows us 
to get out of the exit lane business, which is, again, an 
access control point, which airports have the responsibility 
for dozens of places around any size airport, including 
Indianapolis, beyond the exit lanes, so those are all access 
control issues, and allow us to focus on the core mission of 
TSA, that being the security.
    So, as we work with each airport, what I could envision is, 
with this committee's support, OMB's support, everybody, is to 
take the savings we glean from getting out of the staffing of 
those positions and to try to reinvest that in the technology 
and the installation of those long-term solutions.
    So that is something that the House Homeland Security 
subcommittee is interested in, I know, and working toward that, 
I think, with industry. So that is what I would see as a good 
longer-term solution, airport by airport.
    Senator Coats. Thank you.
    And, second, speaking of budget, as you know, the Murray-
Ryan budget deal gave us all an increase in the passenger 
security fee. But the administration has now asked for an 
additional increase, I think, from, what is it, $5.60 to $6, 
one-way trip.
    That is unlikely to be authorized. I am not always a 
prophet here in terms of what the Senate ends up doing, but 
what I hear from my colleagues is, hey, the first one isn't 
even implemented yet, and now they are asking for more? I have 
talked to some members on the authorizing committee and so 
forth; I am not sure that is going to be authorized.
    I am told that leaves about a $615 million hole in your 
budget. How do you address that, or what is the response to 
that?
    Mr. Pistole. So we are hoping, obviously, that there would 
be passage. The passenger fee you are referring to is about 
$195 million of that, and then there is a $420 million airline 
fee that was rescinded by the Bipartisan Budget Act, and so 
that is what has created that significant gap.
    And so, obviously, we are hopeful that the Congress will 
enact those, but if not, then we will go back and figure out 
how we--and I don't think it is just TSA. It would be within 
the Department of Homeland Security writ large to figure out 
how we can manage our security operations, to the chairman's 
point, with what might be an even more reduced budget.
    Senator Coats. Well, that is going to be an interesting 
task. Obviously, we want to work together. Providing the 
security is the number-one priority, but finding the funds to 
do so--maybe the chairman has a better idea of whether or not 
that fee can be implemented or not on the back of the other 
one.
    Mr. Pistole. Right.
    Senator Coats. But I am sort of--I guess what you need is a 
plan B just in case.
    Mr. Pistole. We are looking at a number of different 
options. This has been a recurring issue, as you know, Senator, 
other than the $420 million airline fee which has been 
collected every year and now this year for the first time not. 
So that is our biggest challenge.
    Senator Coats. OK.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Coats.
    I have one more, and Senator Thune may also.
    We are going to have--some of us are going to have a 
meeting on cybersecurity. And this is a very sad, sad tale, in 
talking about the Congress. I started work on that in 2008 and 
have watched as each year it has been derailed, with very close 
votes, pretty much party-line, with the United States Chamber 
of Commerce squashing any effort to do anything even though the 
entire suggested program was entirely voluntary, which is what 
everybody sought to have as a beginning, as a program.
    So what I want to ask you is, how do you stay alert to 
people hacking into your various functions?
    It seems to me that because lots of them are huge in size 
but small in resources and personnel attending to them that it 
would be quite an opportunity.
    Mr. Pistole. Yes, thank you, Chairman.
    So, obviously, we start off every day with a classified 
intel brief that looks at across-the-board vulnerabilities, 
physical security, cyber, where those issues have come up from 
intel. And I would be glad to go into detail in a classified 
setting.
    But generally we look and are focused on the onboard 
avionics, how they may be compromised on commercial aircraft, 
and then working with FAA, the air traffic control system, in 
case hackers or a cyber-terrorist were able to somehow affect 
that system. Again, I would be glad to go into more detail in a 
classified setting, but those are two of our areas.
    And working with both industry, manufacturers, and then of 
course the intel community, law enforcement community to say 
what are the threats that are out there and what are the 
capabilities and then what are the defenses, the layered 
defenses, which obviously implicate a number of different 
agencies.
    The Chairman. I guess the other thing I worry about, in 
closing, from my point of view, is this rush of people using 
your services, both on air, in barges and containers and ships, 
all kinds of things, ports, that you concentrate more and more 
on let's get it done as quickly as we possibly can, in other 
words, a low risk, and get as many people out of the way as 
possible, and what does that then, being noticed, do to those 
who would wish us harm? I worry about that.
    Mr. Pistole. And thank you, Chairman, for that, because 
that is a concern I share also.
    But just to clarify, the whole purpose is to improve 
security by, as Senator Boxer mentioned, reducing the size of 
the haystack from those known and unknowns. And so it is a risk 
calculation, though, that if you are a United States Senator or 
Member of Congress that you are lower-risk, so let's expedite 
your physical screening because we have prescreened you.
    And if all we know about you is name, date of birth, and 
gender, which is required by Secure Flight, required by the 
statute, then let's apply some other layers, potentially, of 
security to help buy down that risk.
    So the notion is not simply to try to speed things up. It 
is to apply some common sense policies and protocols that allow 
us to focus on higher risk because they are unknown or, 
clearly, the highest risk because they are people on the 
terrorist watchlist.
    I think the Known Crewmember program that we have worked 
out with industry and pilots and flight attendants is a good 
example of how we buy down risk but achieve efficiencies. And 
so over 90 percent of the pilots and flight attendants every 
week in the Nation's busiest airports go through an identity-
based screening that has been enabled by the airlines and the 
pilots association that allows us to verify in real-time that a 
pilot or flight attendant is in good standing, they didn't get 
fired last night, they are not disgruntled or something. And 
then we allow them to go through identity-based screening, 
because I don't, frankly, want to spend time patting down a 
pilot or flight attendant for what may be a small prohibited 
item when what is in their mind and what is in their hands--the 
yoke of the aircraft, for the pilots--is what could be 
catastrophic to that aircraft.
    So it is a risk-based decision, but it is not a guarantee. 
As we know, there have been pilots or copilots in the last 10 
years who have crashed planes because of bad intent, not 
necessarily because of terrorism but for whatever reason.
    So it is something that we have to work in a way that makes 
sense. Always try to be flexible and adaptable so we can modify 
on a moment's notice. If there is new intel that there is 
somebody trying to exploit that, then we can modify it in a 
moment's notice.
    The Chairman. I thank you and call upon Ranking Member 
Thune.
    Senator Thune. Thank you, Mr. Chairman. I just have one 
last question, too.
    And I would, Mr. Pistole, ask you, as--we have talked a lot 
about this today, but, as administrator, you have championed 
programs like PreCheck and other risk-based security 
initiatives. And as I mentioned in my opening statement, I am 
pleased to see the agency move forward with these initiatives 
that are designed to reduce hassle for the flying public.
    One of the ancillary benefits to that is the potentially 
significant cost savings to the agency for personnel, 
especially in light of TSA's workforce growth over the past 
decade.
    The question has to do with resource issues, budget issues, 
et cetera. How has the establishment and expansion of some of 
these programs impacted your staffing model at airport 
checkpoints?
    And as you continue to expand the proportion of the flying 
public that is using these screening lanes through PreCheck and 
other initiatives, do you anticipate that the staffing needs 
might become more streamlined?
    I think the most visible thing that people see of TSA is 
people, obviously, personnel at the airports. And if these 
risk-based mechanisms and things that are being done at these 
various checkpoints actually are being effective, the 
assumption would be that it would give you an ability to 
streamline some of the staffing needs.
    Mr. Pistole. Yes, that is exactly right, Senator. And that 
is why we were able to give back $100 million in savings this 
year in our 2015 budget, because of those efficiencies we have 
achieved.
    And so, for example, because of sequestration last year and 
then the government shutdown, we have been attriting of people 
at a higher rate than we have been replacing them. So, in the 
past, if we had 100 people leave, we would probably hire 100 
people. Because of those issues and our declining budget, we 
are a smaller agency today than we were a year ago. And so, for 
example, we have approximately 3,000 people less than we had a 
year ago, and so our budget has gone down in that regard 
because we are more efficient.
    So at a TSA PreCheck lane, it may be literally twice--we 
can process perhaps as many as twice as many people than a 
standard lane. A standard lane may have 120 to 150 people an 
hour; a TSA PreCheck lane, 240, perhaps as high as 300 people 
an hour. So we don't need as many people to staff those lanes, 
so our staffing models, as you say, for each airport has gone 
down.
    We have also streamlined our oversight of those. For 
example, a year ago, we had 120 what we call Federal security 
directors in a hub-and-spoke alignment around the country. We 
are down to 82 Federal security directors now.
    And we have also downsized headquarters to reflect that 
smaller field presence. Federal Air Marshals we have downsized. 
We are closing 6 out of our 26 offices because of airline 
mergers and realignments and things.
    And so we are trying to make sure that we are providing the 
most effective security but doing it in the most efficient way.
    Senator Thune. Thank you, Mr. Chairman. That is all I have.
    The Chairman. Thank you, Senator Thune.
    And I would just close by thanking you, Administrator 
Pistole. I have not a single example I can think of in the last 
4 or 5 years where I have seen a TSA personnel being rude, 
curt, nasty, or whatever to harried passengers trying to get 
on.
    Mr. Pistole. Thank you.
    The Chairman. They know their work. They do their work. 
They probably mutter things under their breath sometimes, but 
they put their best face forward, and you should be proud of 
them.
    Mr. Pistole. Thank you, Chairman.
    There was a good article in The New York Times yesterday 
about one of our TSOs at LaGuardia who had just sung the 
national anthem at Citi Field with the Mets and engaged a New 
York Times reporter. And I think what you just stated was 
demonstrated in that engagement with that reporter. And, again, 
a good article in The New York Times about TSA.
    Senator Thune. And I would echo that, Mr. Chairman.
    Thank you for your service, Mr. Pistole. And you have a 
very, very tough job under always-difficult circumstances and a 
public that is very demanding. And I know all of us get 
frustrated flying, as those of us that are members of the 
traveling public. But you have a lot of people who are trying 
their best and doing it in a very professional way. Thank you.
    Mr. Pistole. Thanks, Senator.
    The Chairman. Thank you.
    And this hearing is adjourned.
    [Whereupon, at 4:06 p.m., the hearing was adjourned.]
                            
                            A P P E N D I X

Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                        to Hon. John S. Pistole
    Question 1. What are TSA's biggest obstacles to improving the 
acquisition process for security technology, and do any current 
legislative proposals address those obstacles? Does TSA's strategy for 
the allocation of security identification display area badges to 
employees of airport concessionaires ensure that small businesses are 
able to compete for concessionaire contracts? What are TSA's biggest 
obstacles to putting better security technology tools in the hands of 
security professionals, and how well does the TSA Acquisition Reform 
bill help to overcome them?
    Answer. The biggest obstacle to improving the acquisition process 
for security technology and putting better security technology tools in 
the hands of security professionals is the availability of mature 
technology that meets the Transportation Security Administration's 
(TSA) requirements. Over the past several years, TSA and industry have 
partnered to create a number of processes to advance technology and 
reduce the testing timeline. TSA spends a significant amount of its 
Test and Evaluation budget on having to retest technologies because 
they fail to meet TSA's requirements and would not stand up to the 
rigor of the field. Enhancements are ongoing to better validate 
requirements, communicate testing needs, and streamline processes to 
more quickly obtain mission critical security technology.
    Current legislative proposals outline sound acquisition principles, 
processes and best practices which TSA embraces. A majority of these 
principles have already been implemented by the Department of Homeland 
Security (DHS) and by TSA in response to past Government Accountability 
Office (GAO) findings, as well as a result of the natural maturation 
that this agency has undergone.
    In April 2013, TSA issued a national amendment to airport operators 
as Airport Security Plan (ASP) Change 13-02, which provided additional 
options for compliance along with the measure in Security Directive 
1542-04-10. The other options provided in the amendment included: 1) 
utilizing a system to limit access by ID media based on specific 
operational need that requires routine unescorted access to the 
Security Identification Display Area (SIDA); or 2) implementing 
physical improvements to the airport infrastructure that limit, or 
eliminate the need for sterile area concessionaire employees working in 
the sterile area to have unescorted access to the SIDA. Each airport 
operator will work with their respective Federal Security Director to 
amend the Airport Security Plan as necessary. TSA remains dedicated to 
working with airport operators to lessen the burden of outdated 
security measures by updating them for present day security challenges 
while using a risk and outcome-based approach.

    Question 2. As a component of TSA assuming responsibility for 
United States transportation security, at many airports, TSA took 
control of securing exit lanes to ensure that individuals do not access 
secure parts of the airport without passing through the proper 
screening.
    According to the Department of Homeland Security, there have been 
3,000 security breaches nationwide over the past 10 years involving 
unscreened individuals gaining unauthorized access via exit lanes and 
security checkpoints. There have been specific incidents at Newark 
Airport and other major hubs, where individuals have gained access to 
secure areas through exit lanes. This threatens everyone's security. In 
the New Jersey-New York metro area, at Newark, LaGuardia, and JFK 
airports, TSA has controlled exit lane security over the past decade.
    Maintaining strong security at airport exit lanes is essential. 
Given the number of breaches over the years, do you believe that our 
airport exit lanes are vulnerable? Can you provide further details on 
what TSA has done at airports in which TSA controls exit lanes, such as 
Newark, to strengthen security and prevent unscreened and unauthorized 
entry through exit lanes?
    I am also concerned about proposals to remove TSA responsibility 
from securing the exit lanes. Last year, TSA proposed an amendment that 
would remove TSA's responsibility over exit lanes at certain airports 
and give that responsibility to the airports. While the budget deal of 
December 2013 maintained funding for TSA exit lane security at airports 
such as Newark, I am concerned about TSA's position on this issue. Is 
there any existing effort or plans to implement a rule that would 
transfer TSA exit lane funding and responsibility to the airports?
    Answer. Currently, two thirds of airport operators control access 
at exit lanes. The Transportation Security Administration (TSA) staffs 
approximately 350 exit lanes at 145 airports, or 32 percent of the 
Nation's approximately 450 airports at which TSA provides screening 
resources. The majority of exit lanes staffed by TSA are co-located 
with a TSA screening checkpoint. At federalized airports across the 
Nation, the TSA has closely examined exit lane security procedures. TSA 
has worked with airports to improve lines of sight and domain awareness 
for exit lane monitors. At those airports where TSA is directly 
responsible for staffing exit lanes, additional measures have been 
developed. Examples of such measures include local written guidance, 
and local training and frequent reinforcement, tailored to specific 
checkpoints and terminals. At Newark Liberty International Airport 
(EWR), for instance, TSA has increased staffing at those exit lane 
corridors most vulnerable according to past breaches. Additionally, TSA 
EWR has posted detailed guidance on standing, positioning, facing 
forward while engaging with passengers, the need for unimpeded domain 
awareness, and still further specific guidance, tailored to the unique 
exit lane configurations within each terminal at EWR.
    Section 603 of the Bipartisan Budget Act of 2013, Pub. L. No. 113-
67, 127 Stat. 1188 (2013) (Budget Act) requires TSA to monitor 
passenger exit points from the sterile area of airports at which TSA 
provided such monitoring as of December l, 2013. TSA has interpreted 
this to mean if TSA was responsible for an exit lane on December 1, 
2013, TSA will continue to be responsible for the EWR exit lane.

    Question 3. The Airline Pilots Association, Federal Law Enforcement 
Officers Association, and others have recommended the use of 
``secondary barriers'' on aircraft as a mechanism for delaying 
attempted breaches of the cockpit while in flight. Proponents of this 
extra protection maintain the fortified cockpit doors on aircraft are 
only effective when the doors are closed, but there are times during 
flight when the doors need to be open for various reasons, leaving the 
cockpit vulnerable to an intruder. This is a serious security threat 
that may require a policy change.
    In your opinion, what more can be done by Congress, industry, the 
Administration and other stakeholders to increase in-flight passenger 
safety? Do you have an opinion on measures such as installing secondary 
barriers to increase passenger safety?
    Do you agree it is critical to not only employ effective airport 
and screening security, but also to maintain equally stringent in-
flight security precautions, in order to achieve the maximum security 
to airline passengers?
    Answer. The Transportation Security Administration (TSA) continues 
to work with the Federal Aviation Administration (FAA) to evaluate what 
can be done to improve passenger safety while in-flight, and more has 
already been done in the specific area of flight deck access. 
Procedures that provide additional security while the flight deck door 
is open, such as blocking access with a catering cart, have been 
incorporated into airline operating procedures. The FAA adopted a rule 
requiring Flight Deck Door Monitoring and Crew Discrete Alerting 
Systems. While this rule requires additional measures for protection of 
the flight deck, it does not require installation of secondary 
barriers, because according to the FAA this would require an expensive 
reconfiguration of each airplane affected.
    Airlines have the option to install secondary barriers, or adopt 
other security-enhancing practices. TSA's only concern is that any 
secondary barrier installed should not impede the ability of a Federal 
Air Marshal to observe and defend the cockpit door.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Barbara Boxer to 
                          Hon. John S. Pistole
    Question 1. I am very concerned about the incident at San Jose 
International Airport in the early hours of April 20th, when a 15-year-
old boy was able to breach the perimeter fence and climb unnoticed into 
the wheel well of a parked aircraft. We are all thankful that this 
child survived the five-hour flight to Hawaii, but this situation could 
have been a tragedy if terrorists were involved. Situations like this 
remind us that we must have a layered defense when it comes to 
protecting our Nation's transportation systems.
    I understand that the Transportation Security Administration issues 
regulations to guard against unauthorized access to aircraft and 
approves and inspects compliance with airport security plans, which 
includes airport perimeter areas.
    Only three weeks before this security breach, the TSA completed a 
comprehensive three-month inspection of San Jose Airport and found it 
to be in compliance. In the wake of this incident do you agree that 
current regulations are in need of an update? Are you considering 
additional regulations to improve airport perimeter safety?
    How often does TSA review and update Airport Security Plans? If an 
airport's perimeter security is found to be non-compliant, how does TSA 
work with the airport operator to address and correct that?
    Answer. The Transportation Security Administration (TSA) regulates 
airport security under multiple authorities, including 49 U.S.C. 114 
and implementing regulations at 49 CFR parts 1503 and 1542. TSA has not 
recently proposed any new regulations regarding perimeter security; 
however, TSA conducts regular inspections of security measures at 
airports under existing authorities to make sure that airports are in 
compliance with the requirements described in the Airport Security 
Program. For any instance of non-compliance, the regulatory enforcement 
team responsible for covering the airport at which the noncompliance 
was discovered discusses the finding with the airport operator to 
determine the airport's corrective measures and how they will be 
implemented. TSA Inspectors conduct follow-up inspections to ensure the 
finding was addressed and corrected. If airports do not satisfactorily 
implement corrective measures and are found to be in violation, they 
may be subject to civil penalty under the provisions of 49 CFR Part 
1503. The Federal Security Director, Assistant Federal Security 
Director for Inspections, and the Transportation Security Inspector 
staff work directly with the airport operator to put corrective 
measures into place. All investigations and recommendations for 
administrative action or civil penalty are completed within a 90 day 
time frame from the time of the finding of non-compliance.

    Question 2. In a May 2011 TSA report titled ``Recommended Security 
Guidelines for Airport Planning, Design, and Construction,'' there was 
mention of a successful pilot project which used existing FAA Airport 
Surface Detection Equipment (ASDE) radar to provide perimeter and 
airport surface surveillance at a major airport. This technology 
successfully identified intruders, tracked them across the airfield and 
alerted the security operations center. Have any airports across the 
country been working to implement this technology? Can you tell me 
whether TSA has been testing other technologies designed to protect 
airport perimeters?
    Answer. The Airport Surface Detection Equipment radar modification 
was done at John F. Kennedy International Airport, LaGuardia Airport, 
T.F. Green Airport, Seattle-Tacoma International Airport and San 
Francisco International Airport. Operational use reported by installers 
is that the radar has limitations for use and is not totally capable of 
detecting small targets in high clutter areas.
    Currently, the Transportation Security Administration is not funded 
to test other technologies, but is working with airport operators who 
are selecting technology solutions as layers of security in perimeter 
security risk mitigation.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                          Hon. John S. Pistole
    Question 1. Mr. Pistole, as your agency continues to work to find 
ways to maximize your resources while improving safety, members of the 
flying public and the aviation industry as a whole have been glad to 
see the TSA moving away from a one size fits all approach, and toward a 
risk-based system. How are your Risk-Based Security Initiatives 
continuing to drive more common-sense, effective screening measures at 
our airports to keep traffic moving safely and efficiently?
    Answer. Through the implementation of risk-based security 
initiatives focused on passenger screening, the Transportation Security 
Administration (TSA) has demonstrated that it can improve the passenger 
experience and maintain effective security. Since TSA began the initial 
pilot in 2011 of what is now TSA Pre3<SUP>TM</SUP>, more than 200 
million travelers have experienced expedited screening. Today, TSA is 
providing expedited screening to more than 5 million travelers each 
week, and over 40 percent of passengers each day. Recent expansion of 
the Known Crew Member (KCM) program, which provides expedited screening 
for pilots and flight crew, to 56 airports has increased participation 
in that program by nearly 30 percent, with nearly 300,000 flight crew 
each week processing through dedicated KCM portals.
    TSA continues to work with additional airlines to expand TSA 
Pre3<SUP>TM </SUP>participation to more travelers, while expanding the 
population of passengers enrolled in the program. Since the April 30 
hearing, TSA has added two airlines, Sun Country Airlines and Air 
Canada (the first non-U.S. airline), opened 20 more TSA 
Pre3<SUP>TM </SUP>enrollment centers, and added nearly 90,000 new 
travelers to the program. These efforts have improved operational 
efficiency and reduced passenger wait times, and allowed TSA to reduce 
overall staffing in the FY 2015 Request.
    Additionally, TSA continues to expand its risk-based approach to 
our regulatory compliance programs, including vetting of regulated 
party personnel through the National Targeting Center, Cargo Risk-Based 
Inspection Techniques (CRBITs), national testing focused on specific 
areas of threat or concern, vulnerability assessments, and risk-driven 
exercises for industry. In the area of current airport Security 
Directives, TSA is working collaboratively with Industry where possible 
to review current requirements and look to update requirements to 2014 
standards for risk, efficiency, layered approaches, and technology 
improvements. Through these efforts, TSA will continue its goal to 
maintain effective aviation security while facilitating the movement of 
travelers and commerce through the Nation's airports.

    Question 2. Mr. Pistole, perhaps the most visible example of Risk 
Based Security is TSA Pre-check, which allows travelers who have been 
accepted into the program to move more quickly and easily through 
designated screening checkpoints. I understand that you have committed 
to open a TSA Pre-check Enrollment Center at Spokane International 
Airport in June, which is particularly important to that community 
since there are currently no Enrollment Centers in eastern Washington. 
Is that Enrollment Center still on track to open as planned in June?
    Answer. The Transportation Security Administration (TSA) recognizes 
the importance of offering TSA Pre3<SUP>TM </SUP>enrollment centers to 
Spokane and the broader eastern Washington community. TSA, through its 
enrollment vendor, has been actively engaging with Spokane 
International Airport to determine the terms and agreements necessary 
to open an enrollment center in the airport. The agreement was recently 
finalized and the anticipated launch date is targeted for August 2014 
following construction and build out of this site. On May 12, TSA 
opened an enrollment center in Spokane Valley to begin offering TSA 
Pre3<SUP>TM </SUP>to the community while the airport enrollment site 
activities are underway. Individuals may go online and make an 
appointment and/or visit the off-airport enrollment center in-person 
located at:

        12510 E Sprague Ave # 7
        Spokane Valley, WA 99216-0755

    Question 3. Mr. Pistole, in 2013, Congress passed the Bipartisan 
Budget Act that directed TSA to continue to staff airport exit lanes 
and increased funding in part to pay for that monitoring. This action 
was in response to TSA's plan to direct 155 airports across the country 
to assume responsibility for exit lane monitoring. It has come to my 
attention that TSA is now informing airports that are making 
renovations to security checkpoints that if any change is made that 
alters the location of exit lanes, the TSA will not staff those exit 
lanes because they were not in place on December 1, 2013. Can you 
explain TSA's actions and why they appear to be contradictory to 
Congressional direction and the intent of the legislation we passed? 
What long-term technology solutions exist to address this function, and 
how are you working with airports to explore this equipment?
    Answer. Section 603 of the Bipartisan Budget Act of 2013, Pub. L. 
No. 113-67, 127 Stat. 1188 (2013) (Budget Act) requires the 
Transportation Security Administration (TSA) to monitor passenger exit 
points from the sterile area of airports at which TSA provided such 
monitoring as of December l, 2013. TSA has interpreted this to mean if 
TSA was responsible for an exit lane on December 1, 2013, then after 
remodeling, TSA will continue to be responsible for that exit lane. 
Remodeling an existing exit lane at which TSA provided monitoring on 
December 1, 2013, is distinct from opening a new exit lane or moving an 
existing exit lane to a new location. In determining whether an exit 
lane project is a remodeling or relocation effort, TSA would consider 
whether the post-project physical location of the lane would require 
noteworthy additional effort by TSA for supervision, safety checks, and 
supervisor response for a checkpoint breach and/or incident.
    Technology solutions to address this function cover a wide range. 
Baseline solutions for small airports can be as simple as locked doors 
or inexpensive Closed Circuit Television (CCTV) systems. Baseline 
solutions for more complex environments, or supplementary capabilities 
beyond a baseline capability, can range from a CCTV system with simple 
video analytic capabilities all the way to highly sophisticated, multi-
layered custom solutions costing millions of dollars. Examples of 
highly sophisticated systems are automated interlocking doors with 
video; custom multi-layer systems with video (including analytics), 
infrared and optical sensors, automatic doors, and half height 
turnstiles; technology enhanced security force solutions including 
video (with analytics), magnetic closure doors, motion sensor double 
glass doors, steel doors with one-way automatic locks, and smart one-
way doors. TSA developed and made available on-line guidance 
documentation (``guidelines'') and web-based, self-guided, self-
assessment and decision aid tools that provide airport operators and 
Federal Security Directors (FSD) capability to assess their technology 
needs and choose which technologies will most effectively meet their 
needs and resources. Proper use of the ``toolbox'' will produce outputs 
which, TSA can certify as effective security technology options.

    Question 4. Mr. Pistole, last year the House passed legislation 
(H.R. 1204--Rep. Thompson) to permanently charter TSA's Aviation 
Security Advisory Committee (ASAC) in the hope of avoiding lapses in 
the Committee's charter, as has been the case recently. Do you think 
this legislation, which now has a Senate companion (S. 1804--Sen 
Tester), is the best approach? More broadly, I know that you have just 
taken action on the ASAC, but do you have any suggestions for improving 
it to be a more useful and productive resource for TSA and ensure 
stakeholder involvement in TSA's decision making?
    Answer. The Federal Advisory Committee Act exemption contained in 
the proposed bill could help avoid possible lapses in the charter due 
to the Committee re-approval process. However, the Transportation 
Security Administration (TSA) has been working with the Department of 
Homeland Security (DHS) on improving this process, and currently has an 
active Aviation Security Advisory Committee (ASAC).
    Most importantly, TSA wants to avoid any implication that all 
aviation security matters--including developing and implementing 
policies, programs, rulemaking and security directives--must go through 
the ASAC. TSA continues to work with the ASAC on these actions as 
appropriate, but there may be times when it is not possible to do so. 
For example, in exigent situations, TSA may not have time to fully 
coordinate security directives mandating additional security measures 
in response to a specific threat against civil aviation.
    Concerning the proposed subcommittees, the language is too 
prescriptive. The proposed subcommittees cover important topics where 
TSA expects ASAC will do work, but mandating these subcommittees could 
limit the Committee's flexibility to set its own priorities. ASAC 
members, selected from the private sector, choose a Chairperson and 
Vice-Chairperson to lead the group and establish priorities and 
subcommittees for each term. The committee should have the flexibility 
to create the subcommittees it deems critical to meet the pressing 
needs during each term.

    Question 5. Mr. Pistole, the incident at San Jose Airport last week 
has highlighted the issue of perimeter security at airports. I 
recognize that TSA does not implement and manage the airport security 
plans that it approves, but any conversation about security threats to 
our aviation system must address who has access to aircraft and 
runways, and whether we are in full control of that access, which we 
clearly are not. What has TSA learned from your internal reports and 
analysis of this incident, and what improvements can be made to prevent 
this, or a more catastrophic version of this, from happening in the 
future?
    Answer. Since the incident, Norman Mineta San Jose International 
Airport (SJC) Airport Operations, San Jose Police Department and the 
Transportation Security Administration (TSA) conducted a physical 
examination of the airport's perimeter security measures to identify 
and address potential vulnerabilities. SJC staff has increased the 
number of perimeter inspections per day, discussed perimeter and 
individual security with staff and tenants, reconfirmed training 
programs, and notified tenants of the importance of challenging and 
reporting suspicious people and items. SJC is also working with the 
National Safe Skies Alliance Inc. to coordinate research into 
additional technologies related to perimeter deterrence and detection. 
TSA continues to actively engage and meet with the SJC to provide 
guidance and assistance as needed, through direct engagement from the 
Federal Security Director at SJC and from TSA headquarters Office of 
Security Operations (OSO) Compliance Programs Division.
    TSA partners with the Nation's airports to manage risk, within the 
scope of TSA's regulatory oversight capacity and within the funding 
available. TSA also collaborates with industry to identify new 
approaches to secure the Nation's airports.

    Question 6. Mr. Pistole, serious concerns have been raised by GAO 
and others about TSA's Behavior Detection and Analysis Program and 
Screening of Passengers by Observation Techniques (SPOT) Program, 
including lack of effectiveness or scientific basis. What is your 
response to those criticisms?
    Answer. The Transportation Security Administration (TSA) does not 
share the Government Accountability Office's (GAO) assessment of the 
effectiveness of the TSA Screening of Passengers by Observation 
Techniques (SPOT) program as outlined in their Report to Congressional 
Requesters (GAO-14-159) of November 2013.
    Behavior detection techniques have been an accepted practice for 
many years within law enforcement, customs and border enforcement, and 
security communities, both in the United States and internationally. 
TSA's SPOT protocol and the Behavior Detection and Analysis (BDA) 
program are important elements of the TSA multi-layered security 
approach. TSA's Behavior Detection Officers (BDO) also play a key role 
in carrying out TSA's risk-based screening (RBS) initiatives. RBS 
initiatives are intended to provide a more common sense, less-invasive 
screening experience for low-risk passengers.
    TSA's overall security posture is composed of interrelated parts; 
to disrupt one piece of the multi-layered approach will have a far 
reaching adverse impact on other pieces, thereby negatively affecting 
TSA's overall mission performance.
    In April 2011, the Department of Homeland Security Science and 
Technology Directorate (DHS S&T) completed a comprehensive study that 
examined the validity of using behavior indicators in order to identify 
high-risk passengers. The study found that the SPOT program provided a 
number of screening benefits and is more effective than random 
selection at identifying high-risk passengers. While S&T and GAO both 
noted some deficiencies in the methodology used as a part of the study, 
limitations are present in every study and we do not feel that these 
limitations were great enough to discredit the overall findings. While 
future studies will mitigate the concerns that were noted, we believe 
the study itself was an important first step in assessing behavior 
detection in an operational environment.
    Since the publication of the 2011 Study, TSA has taken steps to 
improve the entirety of the behavior detection program and the process 
by which it is validated. In early 2012, TSA began another round of 
research aimed at further substantiating the behavioral indicators by 
providing specific scientific research support for the indicators 
included and improving the detection protocols. This effort evolved 
into what is now known as the Behavior Detection Optimization effort. 
Optimization encompasses four pillars of behavior detection: (1) 
Improving recruiting processes, (2) Enhancing training content to 
further enhance BDO skillsets, (3) Instituting greater management and 
quality control systems, and (4) Revising its Behavioral Detection 
Reference Guide (BDRG) and corresponding Operational Handbook for the 
BDOs as well as designing a new referral methodology. Beginning in the 
Fall of 2014, a subset of airports will receive training for the 
optimized protocol and this training will continue into 2015. After the 
BDOs at these airports have demonstrated proficiency with the new 
protocol, data collection and record testing will begin to further 
validate the new methodology.
    Integral to the optimization project is a comprehensive operational 
test designed to collect the operational performance data to validate 
behavior detection over and above what was seen during the original 
2011 SPOT Validation Study. Scenario-driven testing will be used in 
addition to the outcome-based protocols used in the prior study. 
Utilization of both methods will allow TSA to replicate the type of 
testing used in the 2011 study with the new optimized program while 
also gathering additional data and employing additional testing 
methodologies that are better suited for determining the efficiency and 
effectiveness of the program (e.g., threat inject-type methodologies). 
Each of the GAO limitations discussed in their report will be mitigated 
to the maximum extent possible given the constraints of testing within 
an operational environment as well as the extremely low base rate of 
actual operational terrorists transiting U.S. airports. Initial testing 
will begin in fall 2014, and full data collection is planned for late 
winter 2015.

    Question 7. Mr. Pistole, there has been a lot of discussion of the 
safety of crude-by-rail--with new tank car standards, operating 
procedures, and proper testing and labeling of shipments. But I would 
like to talk with you about the security of crude-by-rail shipments. 
Like much of the West, Washington's cities grew up around--and because 
of--railroads. This means that there is a lot of rail freight moving 
through the centers of our population centers. What kind of security 
threats do crude-by-rail shipments (and other explosive shipments) 
pose?
    Answer. The Transportation Security Administration (TSA) has not 
issued any security alerts related to shipments of crude-by-rail in the 
United States. However, TSA is aware of some plots and discussions of 
attacks against crude-by-rail internationally. For example, in January 
2014, Indian authorities arrested an Indian Mujahideen leader on 
terrorist-related charges. During debriefings, he revealed Indian 
Mujahideen intentions to use magnetic improvised explosive devices 
against freight rail tank cars in India. He further stated the 
intention was to use such a device to detonate one tank car, in hopes 
that the explosion would cause a chain reaction and subsequently engulf 
the remaining freight cars. Extremist media outlets and social network 
sites have also provided technical training documents and explicit 
encouragement to individuals seeking to replicate devices of this kind.

    Question 8. Mr. Pistole, as communities across Washington--and our 
country--grapple with the rapid increase in highly explosive crude oil 
moving through their downtowns, many have requested detailed 
information about how crude trains are being routed, and how many there 
are. They'd like to be able to prepare better accident response plans 
for first responders. Some of that routing information isn't fully 
available, though--and security concerns have been cited as one of the 
explanations. Are you worried that the release of detailed routing and 
train information of crude-by-rail shipments could pose a threat to the 
public?
    Answer. The Transportation Security Administration (TSA) is always 
concerned that information, which could reveal a security 
vulnerability, or aid an adversary planning an attack, is protected in 
accordance with all applicable laws and regulations. When information 
or data is so specific as to reveal potential vulnerabilities, then 
that information must be protected to ensure that only those with a 
legitimate need to know have access to the information. TSA also 
recognizes the need to provide certain information about rail shipments 
of hazardous materials to emergency planners and responders so that 
they may adequately prepare for emergencies involving railroads and the 
transportation by rail of hazardous materials such as crude oil. TSA 
will continue to work with its Federal partners to ensure the proper 
balance of protection and accessibility of transportation-related data 
and information.
    TSA supports the issuance on May 7, 2014, of an Emergency Order by 
the U.S. Department of Transportation (DOT) to require railroad 
carriers operating trains containing large amounts of Bakken crude oil 
to notify State Emergency Response Commissions about the operation of 
these trains through their states. TSA also supports DOT's approach to 
limit distribution of this information to authorized entities within 
each state, which includes emergency planning and first responder 
organizations.

    Question 9. How does the Transportation Security Administration 
work with rail operators to identify risks related to routing of 
hazardous shipments--both those that are Rail Security Sensitive 
Materials, and those that are not?
    Answer. Since 2005, the Transportation Security Administration 
(TSA) has worked with the Nation's railroads to identify threats, 
vulnerabilities, and potential consequences associated with the 
transportation of hazardous materials. The focus of this effort has 
been on the locations and routes with the highest population density 
and routes containing the greatest volumes of rail security-sensitive 
materials. In most cases, assessments of these areas have been used to 
provide the railroads with options for consideration to reduce 
vulnerabilities and minimize potential consequences.
    In 2008, the Department of Transportation's Pipeline and Hazardous 
Materials Administration promulgated a regulation that requires 
railroads to analyze the routes used for the transportation of certain 
hazardous materials to determine the safest and most secure route. This 
regulation (49 CFR 172.820) requires freight railroad carriers to 
submit the results of their analysis to the Federal Railroad 
Administration for evaluation. In February 2014, the Association of 
American Railroads, on behalf of its members, agreed to voluntarily use 
the same route analysis methodology (Rail Corridor Risk Management 
System) for routes used for trains with 20 or more cars of crude oil.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                          Hon John S. Pistole
    Question 1. Transportation Worker Identification Credentials 
(TWICs) are required to access ports and other secure facilities in the 
maritime sector. The Government Accountability Office (GAO) has issued 
two reports harshly critical of the TWIC program. And earlier this 
year, Congress required the Department of Homeland Security to conduct 
an effectiveness assessment of the program prior to promulgating a rule 
on automated card readers for TWIC cards at selected ports. Has the 
Department begun this assessment? If so, are there any results that you 
can share with the Committee at this time?
    Answer. At the direction of the House and Senate Appropriations 
Committee, the Transportation Security Administration (TSA) and the 
United States Coast Guard (USCG) have conducted a security assessment 
addressing the benefits of the Transportation Worker Identification 
Credential (TWIC) program. The draft security assessment report is 
currently under review by USCG and TSA leadership.

    Question 2. In conducting its 2011 report, GAO investigators were 
successful in accessing ports using counterfeit TWICs, authentic TWICs 
acquired through fraudulent means, and by fabricating phony business 
cases for accessing secure areas. What steps has your agency taken over 
the past three years to address these concerns?
    Answer. The Transportation Security Administration (TSA) has worked 
with the United States Coast Guard to identify port access 
vulnerabilities when Transportation Worker Identification Credentials 
(TWICs) are used as ``flash passes,'' to include updates to training, 
access control policies, and business processes.
    Ports establish the requirements for access to their secure 
facilities. Possession of a TWIC, while a necessary element for access, 
does not guarantee its holder the right of access. The TWIC is not a 
substitute for access control policy or trained and attentive security 
personnel. The Coast Guard works with the ports to ensure the 
enforcement of security practices for access to secure facilities, 
including unscheduled inspections using portable TWIC readers.
    TSA has also implemented a variety of enrollment safeguards, such 
as Federal training for trusted agents and the use of document 
authentication technology. Additionally, the Homeland Security Studies 
and Analysis Institute's (HSSAI) Counterfeit Deterrence group conducted 
an evaluation of TWIC in November 2012 and provided input to the 
program for consideration in strengthening TWIC security. TSA is 
developing a Next Generation TWIC under TSA's Technology Infrastructure 
Modernization Program, which incorporates the HSSAI recommendations and 
includes additional security features to further reduce the use of 
counterfeit TWICs. Considerations for the Next Generation TWIC are: (1) 
card durability, appearance, and new security features; and (2) use of 
facial, iris, and other biometrics.

    Question 3. What role will TSA have in the rulemaking that the 
Coast Guard is conducting related to TWIC card readers? What are your 
thoughts on the Coast Guard's decision to require card readers only at 
certain ports and on certain vessels?
    Answer. The Transportation Security Administration (TSA) and the 
United States Coast Guard (USCG) jointly administer the Transportation 
Worker Identification Credential (TWIC) program. TSA is responsible for 
enrollments, security threat assessments, credential production, and 
systems operations. The USCG is responsible for establishing and 
enforcing access control requirements for Maritime Transportation 
Security Act -regulated vessels and facilities. Regulations are 
developed through a thorough, coordinated process that involves all of 
DHS including TSA and USCG, enabling TSA to contribute information to 
USCG to help inform all aspects of the USCG's rulemaking, including but 
not limited to TWIC card reader technical specifications, qualified 
reader technology, and reader testing.

    Question 4. At the hearing, I asked about TSA's implementation of 
the increased passenger security fee scheduled to take effect July 1st 
under the Bipartisan Budget Act of 2013. Senate and House Budget 
Committee Chairmen Murray and Ryan recently provided insight into their 
intentions in a letter to you on the subject, stating that their intent 
in drafting the legislation was that passengers would pay no more than 
twice the maximum fee on a round trip, no matter how many stopovers may 
occur during that round trip. It appears TSA intends to implement the 
fee increase in a manner that is inconsistent with the stated intent, 
even though the agency could implement the fee increase as requested by 
the authors. As you pledged to follow up with me on this question 
during the hearing, please provide a copy of the legal analysis and 
justification used by TSA in drafting the new security fee rule under 
the Bipartisan Budget Act. If none was provided to the Office of 
Management and Budget for consideration, please indicate as much and 
provide an analysis and justification for this hearing record.
    Answer. The Transportation Security Administration (TSA) has 
completed a rulemaking action to amend its regulations to implement 
restructuring of the September 11th Security Fee, enacted as part of 
the Bipartisan Budget Act of 2013 (BBA). In developing this rulemaking, 
TSA has carefully considered the text of 49 U.S.C. 44940, the statutory 
language amending 44940 under the BBA, and available legislative 
history. In the interim final rule published on June 20, 2014, which 
can be found in the Federal Register (https://www.federalregister.gov/
articles/2014/06/20/2014-14488/adjustment-of-passenger-civil-aviation-
security-service-fee), TSA provided the following explanation for 
removal of the round trip cap:

        TSA is removing language that effectively applied a cap to the 
        amount of the fee that could be imposed per ``round trip.'' 
        Under current Sec. 1510.5(a), ``passengers may not be charged 
        for more than two enplanements per one-way trip or four 
        enplanements per round trip.'' This provision effectively 
        created a $10 cap on round-trip travel--in other words, it set 
        a $10 cap on any itinerary that ended at its origin point, even 
        if the itinerary included more than four $2.50 enplanements 
        with lengthy stopovers.

        Thus, for instance, if a passenger purchased a round trip for 
        an itinerary involving ten enplanements, each separated by a 
        three-day stopover, but ultimately ending at the origin point, 
        a $10 fee would be imposed because the regulation caps a round 
        trip at 4 enplanements. At the same time, a different passenger 
        travelling on the same exact flights (same days, same planes, 
        same stopovers and destinations) who does not purchase the 
        travel as a single round trip itinerary could potentially be 
        charged up to $25.00 ($2.50 x 10 enplanements). Thus, as a 
        result of the distinction between round-trip and other 
        itineraries, similarly situated passengers could be charged 
        different fees.\1\ TSA received comments on the 2001 IFR 
        questioning the round trip cap on the basis that it was not 
        specifically stipulated in the statute and had the effect of 
        decreasing revenue. \2\
---------------------------------------------------------------------------
    \1\ In other words, under the current regulations, if Passenger A 
were to book such an itinerary beginning and ending at New York's John 
F. Kennedy International Airport (JFK), and Passenger B were to book 
the same exact itinerary, except that Passenger B planned to return to 
Boston, Passenger A would owe $10, and Passenger B would owe $25.00. 
Similarly, Passengers C and D could both fly on the same days, flights, 
stopovers, and destinations, but pay different fees based on how the 
air transportation was purchased (for example, Passenger C purchases 
air transportation as a single five-stopover round trip itinerary but 
Passenger D purchases the same air transportation in separate 
transactions, creating multiple itineraries).
    \2\ See Letter from Air Transport Association to Docket TSA-2001-
11120 (dated March 1, 2002) available at www.regulations.gov under 
Docket No. TSA-2001-11120-0032.

        As enacted by ATSA in 2001, section 44940(a) required 
        imposition of a ``uniform fee'' on passengers, but specifically 
        imposed a one-way cap on the fee amount in 44940(c). As 
        discussed above, prior to the Budget Act amendments, section 
        44940(c) provided that the fee ``may not exceed $2.50 per 
        enplanement in air transportation or intrastate air 
        transportation that originates at an airport in the United 
        States, except that the total amount of such fees may not 
        exceed $5.00 per one-way trip.'' This language provided TSA 
        with clear discretion to limit the amount of fee charged per 
        enplanement and, therefore, to provide a cap on the amount 
        charged per round trip. Amending section 44940(c) by mandating 
        a fee of $5.60 per one-way trip, as well as eliminating the cap 
        language that was in the statute as enacted in 2001, is 
        consistent with the authorizing language of section 44940(a) 
---------------------------------------------------------------------------
        and the requirement to impose a ``uniform fee.''

        Accordingly, in the absence of statutory language authorizing 
        such a cap, and in light of the fact that a round-trip cap 
        under the revised fee structure would have the effect of the 
        fee being far less for some passengers than the mandatory $5.60 
        per one-way trip, this IFR does not include a limit on the 
        number of one-way trips--trips that can be charged per 
        itinerary. TSA notes that by eliminating the round-trip cap, 
        the restructured fee mitigates the likelihood of disparate 
        treatment for substantially similar travel--some booked as 
        round trips on one itinerary, and some not.

    Question 5. Given TSA's interest in reducing or eliminating the 
need to remove shoes, laptops and liquids under its risk-based 
approach, how will TSA's new technology acquisitions and upgrades help 
facilitate this goal? Additionally, could TSA's technology acquisition 
plan aim to achieve risk-based screening on a passenger-by-passenger 
basis?
    Answer. The Transportation Security Administration's (TSA) new 
technology acquisitions and upgrades are designed to support TSA 
Pre3<SUP>TM </SUP>expansion and facilitate specific goals to minimize 
divestiture requirements for passengers while enhancing security 
effectiveness. TSA has invested in, and began the testing of, enhanced 
algorithms on Advanced Technology systems that allow large electronics 
to remain in passengers' carry-on luggage. Additionally, further 
planned enhancements are aimed at easing current liquid restrictions. 
To ensure alignment between industry partners and TSA in meeting agency 
goals, TSA has released the TSA Security Capability Investment Plan 
aimed toward providing industry stakeholders insight into the 
capability investment areas. TSA continues to work closely with the 
Department of Homeland Security Science and Technology and interagency 
partners in the Departments of Defense and Justice to develop advanced 
technology in support of TSA's risk-based security needs.
    In addition, TSA is investing in Credential Authentication 
Technology (CAT). This technology enables TSA to automatically 
authenticate identity documents that are presented to TSA by passengers 
during the security checkpoint screening process, further enhancing 
travel safety. In the future, CAT systems will integrate with the 
Secure Flight system through the Security Technology Integrated Program 
(IT program that automates exchange of information with various 
screening equipment, including the capability to dynamically transfer 
information between Transportation Security Equipment and vetting and 
security operations) in order to provide a passenger's risk status to 
the Travel Document Checker at the airport checkpoint. Additionally, 
TSA would like to develop an integrated system whereby a passenger's 
risk status would be correlated with appropriate screening 
technologies. By linking risk information with a more tailored approach 
to screening, TSA will be able to provide greater situational 
awareness, as well as the ability to rapidly adjust risk mitigation 
based on emerging threats and evolving environmental risk.

    Question 6. After 9/11, the U.S. Congress mandated that TSA deploy 
Explosive Detection Systems (EDS) to screen 100 percent of checked 
baggage at all U.S. airports, and TSA deployed EDS with computer 
tomography (CT) technology in fulfilling this mandate. This technology 
is now available for security checkpoints as well, and we're seeing the 
application of such technology at airports overseas. Such systems could 
potentially address the need for improved screening while improving 
traveler experience by largely eliminating the need to remove liquids/
laptops and increasing throughput. Does TSA plan to bring this type of 
technology to the checkpoint?
    Answer. The Transportation Security Administration (TSA) in 
collaboration with the Department of Homeland Security (DHS) Science 
and Technology Directorate (S&T) has been monitoring the progression of 
computed tomography (CT) but is not planning on using this technology 
for checkpoint purposes. Historically, the issues with operationalizing 
CT for the checkpoint have been cost and size related. CT systems for 
the checkpoint have been roughly 50 percent more expensive than 
traditional projection X-ray systems, and the footprint is larger than 
currently deployed technologies.
    However, TSA's Passenger Screening Program has hosted over six 
different companies who discussed their CT for checkpoint solutions and 
TSA collaborates with its international partners who utilize CT to 
exchange lessons learned. TSA will continue to actively monitor the 
technological developments of CT and its feasibility within the 
checkpoint environment. At this time, TSA does not have any plans to 
procure CT for use at the checkpoint to screen carry-on bags.

    Question 7. I have heard concerns from those representing smaller 
concessionaires at airports that TSA, under Security Directive 1542-04-
10, allows only 25 percent of an airport concessionaire's employees to 
hold security identification display area--or SIDA--badges. For small 
businesses with few employees, the limited number of employees allowed 
to hold SIDA badges may be problematic. This requirement could make it 
difficult for these small businesses to compete effectively for 
concessionaire contracts. For example, because certain contracts may 
require long continuous service hours during which a concessionaire's 
employees would need to access secure areas like the tarmac for various 
servicing, delivery, and trash disposal needs, the limited proportion 
of employees who would be allowed to hold a SIDA badge may disadvantage 
concessionaires with a relatively small number of employees. Would you 
revisit TSA's current ``one-size-fits-all'' approach to SIDA badge 
issuance procedures and look at changes that may be necessary to 
facilitate and help small businesses compete on an equal playing field, 
while still providing the necessary security measures for airport 
facilities?
    Answer. Strong access controls to the sterile areas of our Nation's 
airports are a crucial layer in our aviation security system. One way 
the Transportation Security Administration (TSA) manages access control 
is through limiting the number of secure identification display area 
(SIDA) badges issued at each airport, as these badges give individuals 
unfettered access to the sterile area. However, recognizing that this 
limitation was creating some hardships at larger airports, TSA worked 
with industry to develop options for addressing this issue.
    In April 2013, TSA amended the national Airport Security Plan (ASP) 
(Change 13-02), to create flexibility by providing options in addition 
to the 25 percent measure in Security Directive 1542-04-10. The other 
options provided in the amendment included: (1) technology that, in 
lieu of general access, enables limited access to individuals to 
certain areas of the airport based on their specific job requirements; 
or (2) implementing physical improvements to the airport infrastructure 
that limit or eliminate the need for sterile area concessionaire 
employees working in the sterile area to have unescorted access to the 
SIDA. An example of this would be providing storage areas for 
consumable goods in the SIDA, thus negating frequent trips. Each 
airport operator must work with its respective Federal Security 
Director to amend the airport-specific, Airport Security Plan, as 
necessary. TSA remains dedicated to working with airport operators to 
lessen the burden of outdated security measures by updating them to 
meet present day security challenges, while using a risk and outcome-
based approach.

    Question 8. Your written testimony for this hearing stated: ``It is 
my goal to consistently apply a risk-based approach to all aspects of 
TSA's mission. Whether it is the deployment of Federal Air Marshalls 
(FAMs), the allocation of Transit Security Grant resources, or air 
cargo screening policies, TSA is working to implement a risk-based 
approach that allows us to deliver the most effective security in the 
most efficient manner.'' With respect to TSA's air cargo screening 
policies, how are you implementing a risk-based approach and how far 
along are you are in that implementation process?
    Answer. The ``Trusted Shipper'' concept is an essential element in 
enabling passenger carriers to apply principles of risk to the 
screening of inbound cargo without disruption to the global air cargo 
supply chain. The concept, currently implemented as standards in the 
Transportation Security Administration security programs requiring air 
carrier determinations, may in the future be implemented through the 
Air Cargo Advanced Screening program to provide an automated, data-
driven, neutral platform for the determination of ``trusted'' shipper/
shipment status. Automated segmentation of these shipments will more 
readily enable industry to apply appropriate tiered screening 
protocols, assisting both passenger carriers, and all-cargo carriers in 
processing ``non-trusted'' shipments for additional screening measures 
outlined in the appropriate security program.

    Question 9. In your written testimony, you also referenced seeking 
employee feedback via the TSA Idea Factory, your web-based employee 
engagement tool, and receiving contributions from all levels of the 
organization. In contrast, however, the Partnership for Public Service 
(PPS) recently ranked TSA last out of all Federal agencies in its 
annual innovation score based on a survey of Federal employees. This 
ranking suggests TSA employees are not being encouraged and motivated 
to be creative and develop new ideas in their job. How would you 
describe TSA's current culture for promoting innovation and new ideas, 
and how do you reconcile TSA's low ranking in the PPS survey with your 
description of TSA's efforts to solicit employee feedback in your 
testimony?
    Answer. Innovation and promoting new ideas is an integral part of 
the Transportation Security Administration's (TSA) current culture. 
Innovation has been one of TSA's core values since its formation in 
2002. TSA defines innovation as embracing and standing ready for 
change; being courageous and willing to take on new challenges; and 
having an enterprising spirit and accepting risk-taking that comes 
along with innovation. In 2007, TSA launched the IdeaFactory, a web-
based social media tool that allows all employees to submit, rate and 
comment on ideas to improve the organization. This gives the frontline 
workforce the ability to submit ideas and gain a voice in how the 
agency evolves. The IdeaFactory has changed the way TSA interacts with 
a large, geographically dispersed frontline workforce and has led the 
way in how the Federal government uses employee ideation tools to 
engage employees. The IdeaFactory was featured in the White House 
Innovation Gallery in 2009, and in 2011, it was honored with a Harvard 
Kennedy School Ash Center Bright Idea Award. TSA has implemented 
hundreds of employee suggestions over the last seven years improving 
areas such as communications, customer service, training, procedures 
and human resource policies.
    Yet, technology cannot be the only solution for encouraging and 
motivating employees to be creative and develop new ideas in their 
jobs. Currently, the IdeaFactory is accessible only via TSA's network 
and many of the 46,000 frontline employees do not have ready access to 
computers. Additionally, because of TSA's critical security mission, 
the frontline workforce is expected to follow Standard Operating 
Procedures in their daily operations. Consistent application of 
security measures is critical to carrying out the mission and this may 
make employees feel as though new ideas are not consistently 
encouraged.
    Future plans include making the tool more accessible to the 
workforce; training supervisors and managers to be responsive to new 
ideas and initiatives; and using senior leadership-sponsored 
IdeaFactory challenges to ask the workforce for input on specific ideas 
and programs.

    Question 10. In your March 25, 2014 testimony to the House 
Appropriations Subcommittee on Homeland Security, you stated that TSA 
is letting private contractors know how much Screening Partnership 
Program (SPP) airports cost the government. But in testimony before the 
House Committee on Government Reform in January 2014, Assistant 
Administrator Kelly Hoggan stated that TSA does not consider some 
costs, such as Federal employee benefits, in its Federal cost estimate. 
Since these and other costs associated with TSA screening that are 
incurred in accounts other than Screening Operations are not being 
considered, how do private contractors and the general public know 
whether the TSA's Federal cost estimate provided to the private sector 
truly represents the entire cost paid by the taxpayer?
    Answer. When calculating the Federal Cost Estimate (FCE) that is 
included in the Request for Proposals (RFP) for privatized screening 
contracts, the Transportation Security Administration (TSA) includes 
all costs directly attributed to screening operations, which include 
indirect costs such as headquarters overhead, airport administrative 
staff and supplies, hiring and recruitment costs, information 
technology support and other cost items.
    TSA excludes costs that fall outside annual appropriations, 
including future unfunded retirement liabilities, corporate tax 
adjustments, and general liability insurance. The FCE reflects those 
costs directly borne by the agency.

    Question 11. You also stated in your House testimony that the SPP 
drives up the TSA's administrative costs, because the agency must 
employ more contract administration staff. While increased SPP 
participation may necessarily increase TSA's contract oversight staff, 
wouldn't the TSA's overall administrative cost actually be reduced, 
because the SPP shifts some of TSA's significant human resources 
administrative responsibility to the private sector?
    Answer. Administrative costs for the Screening Partnership Program 
(SPP) are dependent on factors such as the number of airports in the 
program, the size and operational complexity of these airports, and the 
number of companies involved in providing services. For example, 
implementing or negotiating multiple changes at several airports with 
multiple contract providers may present greater challenges than 
managing these matters with fewer contract providers or airports. 
Similarly, multiple and overlapping contracting competitions may 
require more Transportation Security Administration Headquarters 
administrative resources to manage efficiently.
    The SPP workforce currently represents less than 5 percent of total 
screeners in the field. The human resources administrative 
responsibility relieved by such a small number of workers moving to the 
private sector does not relieve enough workload for TSA personnel to 
result in meaningful staffing reductions.

    Question 12. At the hearing, I asked about the impact of risk-based 
security initiatives on staffing models at airport checkpoints. Please 
provide additional, specific forecasted long term cost savings and 
staffing efficiencies that you expect TSA to achieve as a result of all 
risk-based security measures taken or planned at the agency.
    Answer. The Transportation Security Administration (TSA) began 
implementing a series of risk-based initiatives in 2011. TSA continues 
to expand risk-based security (RBS) efforts by adding new programs and 
populations selected for expedited screening by using intelligence and 
risk-based information. Staffing efficiencies are now being realized 
due to TSA meeting and surpassing its calendar year 2013 goal of 
providing expedited screening to 25 percent of the traveling public, 
and as a result, TSA included $120 million in budget savings related to 
RBS efforts in the Fiscal Year (FY) 2015 Request.
    TSA's general underlying assumption at this time is that TSA will 
be able to achieve an approximate 50 percent expedited screening rate 
by the end of calendar year 2014. However, this general assumption 
cannot be applied universally across all airports. Realized 
efficiencies are unique to each airport, based on the size of the 
checkpoints, the peak travel times, the number of participating air 
carriers, airport infrastructure configurations and other factors. 
TSA's Enhanced Staffing Model (ESM), which determines the workload for 
each checkpoint, will need to be run for each location to determine 
actual savings.
    The ESM is updated for each airport in the summer preceding the 
upcoming Fiscal Year and reviewed on a regular basis. Although future 
system-wide staffing efficiencies, due to RBS efforts, are anticipated 
in FY 2016 and beyond, the specific impact at each airport and 
checkpoint in these out years has not been determined at this time.

    Question 13. As the TSA has acquired Reveal Imaging Technologies 
(CT-80) x-ray machines, airports across the country have spent 
significant funds designing and building checked baggage systems laid 
out to accommodate these machines. I understand the agency is now in 
the process of upgrading and removing some of the machines to allow for 
better throughput on a per machine basis. However, with fewer machines, 
overall capacity in the event of an outage may be temporarily 
diminished even with the upgraded machines, and the full costs of 
accommodating the new machines are not clear. These potential capacity 
and cost problems would be particularly difficult for small airports. 
Please provide a full inventory of the machines, including a list of 
airports using the CT-80 machines and those machines that may be in 
storage. Please also provide a list of airports where the agency is 
proposing changes, and a description of what TSA intends to do with the 
existing machines, including a description of the agency's plan for how 
costs associated with the agency's moves will be borne. In your 
response, please be sure to detail any plans that may affect any of the 
South Dakota airports, including Sioux Falls, regarding checked baggage 
screening capacity and costs.
    Please provide a full inventory of the machines, including a list 
of airports using the CT-80 machines and those machines that may be in 
storage.
    Answer. As this information is designated For Official Use Only, 
the Transportation Security Administration is providing this 
information under a separate cover.

    Question 14. Please also provide a list of airports where the 
agency is proposing changes, and a description of what TSA intends to 
do with the existing machines, including a description of the agency's 
plan for how costs associated with the agency's moves will be borne.
    Answer. As this information is designated For Official Use Only, 
the Transportation Security Administration is providing this 
information under a separate cover.

    Question 15. Explanation of costs:
    Answer. TSA will fully fund the design and facility modification 
costs for both stand-alone and integrated Explosives Detection System 
(EDS) recapitalization projects, provided all costs are within current 
Planning Guidelines and Design Standards. For integrated EDS 
recapitalization projects, the infrastructure changes required to 
accommodate growth through the date of beneficial use plus five years 
are the responsibility of the airport.
    In instances where airports have requested funding for integrated 
screening solutions where none existed before, TSA will enter into a 
cost share agreement with an airport to facilitate the design and 
construction of a Checked Baggage Inspection System. If funds are 
available, TSA will provide up to 90 percent (for large and medium hub 
airports) or 95 percent (for small and non-hub airports) of allowable/
allocable costs associated with the project if the cost effectiveness 
analysis predicts a 10 year positive return on investment.
    In instances where TSA has identified a requirement for a new or 
upgraded stand-alone EDS unit, TSA will fully fund the removal, 
upgrade, deployment and installation of the EDS.

    Question 16. In your response, please be sure to detail any plans 
that may affect any of the South Dakota airports, including Sioux 
Falls, regarding checked baggage screening capacity and costs.
    Answer. One of the airports that the TSA has identified for CT-80 
EDS upgrades is Sioux Falls Regional Airport (FSD) which currently has 
two baggage zones supported by two CT-80 EDS units in each zone. All 
CT-80 units in the field must be upgraded to meet enhanced detection 
standards. TSA will fully fund all costs associated with this upgrade 
project. TSA has completed one phase of the project by removing two CT-
80 units that need to be upgraded by the vendor, Reveal, to the CT-80DR 
model. Current demand at FSD does not warrant two EDS in each zone; 
therefore, the two underutilized EDS units will be removed, upgraded to 
CT-80DRs, and reallocated in order to satisfy an existing operational 
need at another airport.
    Should demand for baggage screening resources change, TSA will work 
with local airport authorities to accommodate new requirements.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                          Hon. John S. Pistole
    Question 1. It has come to my attention that the TSA has planned to 
replace the seven CT-80 Reveal machines with only five upgraded 
machines at Gulfport-Biloxi Regional Airport. The airport has recently 
made significant investments in its ticket lobby and baggage handling 
area under the assumption that it would maintain seven baggage 
screening machines. These machines are routinely used and are 
instrumental to the airport's attempt to attract additional carriers 
and increase the economic development opportunities throughout the 
region. Can you please justify for me the reasoning for the TSA's 
decision to reduce the number of machines? During the decision making 
process, did the TSA consider the additional impacts to the airport 
including the affects to customer service, exclusive lease areas, 
operational, marketing and space constraint issues?
    Answer. Prior to making the decision to remove two CT-80 Reveal 
explosives detection system (EDS) units from Gulfport-Biloxi Regional 
Airport, the Transportation Security Administration (TSA) confirmed no 
airlines have used ticket counters 2 and 3 for over a year. The two EDS 
units at those ticket counters have accommodated overflow from Delta 
Airlines and occasional unscheduled charter flights. TSA has 
recommended the use of gravity rollers in place of the EDS units to 
support transferring bags for screening when these ticket counters are 
utilized. TSA also advised the airport authority that should an airline 
decide to move into those spaces, TSA would work with the airport in 
meeting its requirements for baggage screening.

    Question 2. It has also come to my attention that despite the clear 
legislative guidance regarding the need for TSA to continue to monitor 
airport exit lanes, this does not seem to be the case when it comes to 
Raleigh-Durham International Airport. TSA recently informed Raleigh 
Durham Airport that because of its recent renovations it is no longer 
responsible for monitoring the new exit lanes. Memphis International 
Airport is about to embark on a Terminal Modernization Program and is 
concerned that it will be in a similar situation. Does TSA have an 
obligation to monitor airport exit lanes? Can I have your assurances 
that TSA will continue to monitor the exit lanes at Memphis 
International Airport both during and after the renovations are 
complete?
    Answer. Section 603 of the Bipartisan Budget Act of 2013, Pub. L. 
No. 113-67, 127 Stat. 1188 (2013) (Budget Act) requires the 
Transportation Security Administration (TSA) to monitor passenger exit 
points from the sterile area of airports at which TSA provided such 
monitoring as of December l, 2013. TSA interprets this to mean if TSA 
was responsible for an exit point on December 1, 2013, then after 
remodeling, TSA will continue to be responsible for that exit point. 
Remodeling an existing exit point at which TSA provided monitoring on 
December 1, 2013, differs from opening a new exit point or moving an 
existing exit point to a new location. In determining whether an exit 
point project is a remodeling or relocation effort, TSA would consider 
whether the post-project physical location of the point would require 
significant additional manpower or FTE allocation by TSA for 
supervision, safety checks, and supervisor response for a checkpoint 
breach and/or incident. TSA does have an obligation to monitor exit 
points at Memphis International Airport. Based on current modernization 
plans, this obligation is expected to continue during and after the 
recently announced airport modernization effort.
                                 ______
                                 
      Response to Written Question Submitted by Hon. Roy Blunt to 
                          Hon. John S. Pistole
    Question. TSA has historically maintained that it is 3 to 9 percent 
more cost efficient than its private sector Screening Partnership 
Program (SPP) partners at providing airport security screening at 
airports across country. I have always found it difficult to accept 
this position. Surely, when factoring in how much it costs for TSA 
screeners to receive government benefits and other costs born 
``government wide'' (not just specifically by the TSA), your cost 
comparison cannot be accurate. Multiple GAO studies have also been 
critical of the methodology used by TSA to calculate this cost 
comparison. DHS has also acknowledged that TSA does not include 
government-wide costs when making cost comparisons to SPP contractors. 
In the FY14 Omnibus, Congress directed TSA to contract with an 
independent entity to analyze this cost issue and hopefully once and 
for all get to the bottom of it.
    But for now I want to ask for more elaboration on TSA's continued 
position that it is more efficient than private contractors, 
specifically in relation to the cost estimate TSA uses as a maximum 
allowable price bid for solicitations. For example, TSA in February 
awarded a SPP contract at the Kansas City Airport. The cost associated 
with the contract is 20 percent below TSA's cost estimate of its own 
costs were it to perform the screening services. Without getting into 
the specifics of the contract, I have concerns that this huge 
inconsistency, albeit one that cuts in the private applicants favor, is 
symptomatic of these problems with TSA's cost analysis. Can you explain 
how TSA might award a contract award at a price so far below its 
operating costs (20 percent) while at the same time maintain that its 
operating costs are generally 3-9 percent more cost efficient than 
private contractors? Do you anticipate the study directed by the FY14 
Omnibus will include a ``government-wide'' cost accounting?
    Answer. The 3 to 9 percent reference is from a Government 
Accountability Office (GAO) report update in 2011 (GAO-11-375R), which 
included alternative approaches to formulating estimates. As reflected 
in the report, this range was for a point in time and was a composite 
average for all participants in the program. Cost estimates vary from 
airport to airport and are dependent on security requirements, which 
may change based on variables such as the configuration of the airport, 
passenger throughput and equipment requirements.
    The Transportation Security Administration (TSA) awards contracts 
under the Screening Partnership Program (SPP) that provide the best 
value to the Government and do not compromise security or detrimentally 
affect the cost-efficiency or effectiveness of screening passengers or 
property, as required by the Federal Aviation Administration 
Modernization and Reform Act of 2012 (P.L. 112-95). TSA's solicitations 
are based on cost estimates reflecting the actual resources used to 
conduct screening operations at the airport. Upon conclusion of the 
evaluation process, the award is made to the responsible offerer whose 
proposal, conforming to the solicitation, will be most advantageous to 
the Government. A low price does not necessarily reflect an 
insufficiency of technical approach (to ensuring security 
effectiveness). In the case of Kansas City International Airport, the 
winning proposal was found to be the most advantageous offer for the 
Government, meaning it provided the best technical proposal for the 
price.
    Per the request of Congress, TSA has awarded a contract for an 
independent study to be conducted on the cost and performance of SPP 
airports as compared to non-SPP airports. Because TSA's cost estimating 
methodology is the focus of the study, TSA structured the solicitation 
so that companies may propose their own approaches for providing the 
most robust cost and performance comparisons. The independent 
contractor does intend to assess costs external to TSA's budget per 
recent GAO recommendations. The contractor's report will be due to TSA 
in November for review and TSA is required to provide that report to 
GAO for its review within one year of enactment of the FY 2014 
Appropriations Act.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Marco Rubio to 
                          Hon. John S. Pistole
    Question 1. My understanding is that the TSA, as part of its 
responsibility for transportation security, must provide certain 
transportation workers with a security threat assessment that may 
include a fingerprint-based criminal history records check. These 
workers may include those with certain aviation jobs, maritime jobs 
which require a ``transportation worker identification credential'' and 
commercial drivers who seek ``hazardous materials endorsements.'' It is 
also my understanding that there are variations in the criteria for a 
criminal history records check that may disqualify an applicant for one 
position but would not disqualify an applicant for another position. Is 
there an opportunity to harmonize the criteria? And if so, what 
benefits could stem from harmonization?
    Answer. Yes, the Transportation Security Administration (TSA) 
supports and intends to harmonize programs to the extent it can within 
existing legislation such as harmonization of enrollment procedures and 
customer interaction. TSA was able to align the Hazardous Materials 
Endorsement (HME) criminal disqualifying criteria to be the same as 
required for the maritime workers requiring a Transportation Worker 
Identification Credential (TWIC). For these two populations, TSA is 
able to provide a common enrollment, security threat assessment and 
associated reduced fees to lower the burden to applicants.
    A legislative change is required to harmonize criminal 
disqualifying criteria between aviation and the surface and maritime 
credentialing programs. Under the current statutory regime, the list of 
crimes, period of time for which a conviction remains disqualifying 
(``look-back'' period); and redress process for aviation differs 
substantially from the surface and maritime programs.
    Amendments to existing statutes are required to make the aviation 
criminal history records check (CHRC) requirements the same as the 
statutory requirements governing the TWIC program, which TSA also 
applies to HME applicants.
    If the CHRC statutory requirements were made identical across all 
modes of transportation, TSA anticipates that it would reduce the need 
for multiple background checks for workers who access a variety of 
transportation facilities.

    Question 2. Congress directed TSA to reform the TWIC process to 
enable applicants to obtain a TWIC with a single visit to an enrollment 
center. It's my understanding that TSA's plans for the national 
implementation of the OneVisit program calls for rollout in May and 
completion in August. Can you confirm that time-frame for the 
Committee? Based on the OneVisit pilot programs that have been 
completed, do you anticipate any problems that would prevent you from 
meeting objective? I would appreciate regular reports from you and your 
staff on the status of national implementation after the rollout begins 
in May.
    Answer. The Transportation Security Administration (TSA) began 
national implementation of the Transportation Worker Identification 
Credential (TWIC) OneVisit in May 2014, and completed the national 
OneVisit rollout in July 2014. All Universal Enrollment Services (UES) 
sites offer the OneVisit enrollment option. TSA revised the information 
collection associated with the TWIC program to reflect the OneVisit 
option. This revised collection was approved earlier this summer.

    Question 3. Tourism is an important part of Florida's economy, and 
my home state is a destination for millions of international travelers. 
One key part of their trip is the experience they encounter when 
travelling through our airports. Does TSA work with tourism officials 
when developing screening procedures or training agents, particularly 
at airports with a high percentage of international travelers?
    Answer. In 2012, the Transportation Security Administration (TSA) 
created the Passenger Support Specialist program. This workforce 
initiative is comprised of Transportation Security Officers who have 
received special training to resolve the concerns of, and provide 
assistance to, travelers including those traveling to and from 
international destinations. More than 3,500 officers volunteered to 
represent TSA in this role, receiving specialized training from 
stakeholder organizations representing various facets of the traveling 
public, including those representing multicultural communities.

    Question 4. It seems that the TSA PreCheck program has benefited 
both TSA and the traveling public, and that those benefits would 
continue if more people signed up for the program. In looking at the 
PreCheck program, however, it seems that TSA has neither the resources 
nor the expertise to conduct an effective marketing campaign to expand 
PreCheck and help the program realize its potential. As a result, it 
seems to me that some sort of collaboration with the travel community 
to have marketing experts promote the program would be smart and 
effective. Is TSA partnering with the travel community on this program, 
and what are your thoughts on such an effort?
    Answer. The Transportation Security Administration (TSA) has 
partnered with the travel industry since the inception of TSA 
Pre3<SUP>TM </SUP>in October 2011. Initial marketing and communication 
efforts involved the airlines participating in TSA 
Pre3<SUP>TM </SUP>program and promoting enrollment via the U.S. Custom 
and Border Protection's (CBP) Global Entry program. During 2012, TSA 
expanded outreach and communications more broadly to the larger travel 
industry community, including:

  <bullet> Dedicated TSA Pre3<SUP>TM </SUP>web pages on the Internet 
        sites for all 11 participating airlines.

  <bullet> TSA Pre3<SUP>TM</SUP>-related articles in several in-flight 
        magazines and employee newsletters.

  <bullet> Direct airline messaging about TSA Pre3<SUP>TM </SUP>to 
        passengers via e-mail, signs posted at ticket counters and in 
        airline lounges, and pop-up messages on check-in kiosks.

  <bullet> TSA Pre3<SUP>TM</SUP>-specific signage provided by airports 
        to include directional signs as well as `call to action' 
        banners regarding the TSA Pre3<SUP>TM </SUP>enrollment process.

  <bullet> Co-marketing agreements with American Express Card Services 
        and Sabre Travel Network to promote TSA 
        Pre3<SUP>TM</SUP>enrollment direct to customers and through 
        travel managers.

    After TSA launched the TSA Pre3<SUP>TM </SUP>application program in 
December 2013, marketing shifted to promoting direct enrollment in this 
program. TSA has opened 304 application centers across the country. On 
average, TSA receives 3,500 applications per day, more than double the 
initial projections that were based on CBP Global Entry enrollments. As 
of September 3, 2014, more than 524,000 travelers will have enrolled in 
TSA Pre3<SUP>TM</SUP>.
    TSA recognizes that a strong partnership with the travel industry 
and other organizations remains critical to the success of TSA 
Pre3<SUP>TM</SUP>. TSA recently established a marketing advisory group 
consisting of the TSA Office of the Chief Risk Officer's Chief 
Marketing Officer and the Division Director of Marketing and Branding, 
and the Aviation Stakeholder of the TSA Office of Security Policy and 
Industry Engagement. The marketing and advisory group is actively 
working with a number of industry trade groups including Global 
Business Travel Association, U.S. Travel Association, Airports Council 
International, American Society of Travel Agents, U.S. Tour Operators 
Association, and several large travel management firms. TSA also works 
with other entities which include Marriott Hotels, Loews Hotels, Brand 
USA, and Visa Card Services to market TSA Pre3<SUP>TM</SUP>. A contract 
with a small business marketing firm to assist with branding and 
creative content development is close to being finalized.

    Question 5. I sent you a letter in 2011 following a much publicized 
incident with the screening of an elderly passenger in a Florida 
airport. In your response, you noted on the letter that TSA is 
``actively exploring options for screening the elderly using more of a 
risk based approach.'' This is of particular interest to my state given 
the elderly population in Florida. Can you describe what options you 
have explored and implemented to ensure that elderly passengers are 
treated with dignity and respect?
    Answer. It has always been the Transportation Security 
Administration's (TSA) policy to treat all passengers, especially the 
elderly, with dignity and respect. As part of TSA's movement away from 
a one-size-fits-all approach to security and the implementation of 
risk-based protocols, TSA has modified screening procedures for the 
elderly to better focus resources on passengers who may be more likely 
to pose a greater risk to security, and to further ensure elderly 
passengers are treated with dignity and respect as they undergo 
screening. Under the modified procedures, passengers appearing 75 and 
older do not have to remove shoes and light jackets when going through 
security checkpoints and are allowed an additional pass through 
Advanced Imaging Technology to clear any anomalies detected. However, 
elderly passengers may be required to remove their shoes or undergo a 
pat-down if anomalies are detected during security screening that 
cannot be resolved through other means. Additionally, passengers 
appearing 75 and older who are unable to stand for screening may remain 
seated and will receive a comparable level of screening, including 
explosives trace detection.

    Question 6. As you look to increasingly enhance the performance of 
TSA's front line workforce--the Transportation Security Officers, 
specifically--what are the critical success factors you and your 
management team consider need to be addressed? Additionally, in looking 
at the job of a TSO, there is clearly a security component to it; 
however, there is also an important customer service aspect that I am 
guessing is often overlooked. How customers are treated when in line, 
how long they have to wait, and how TSOs interact with passengers at 
the checkpoint are among the items I'd consider critical to customer 
service. So, can you tell me how you measure the level of customer 
service provided at the checkpoint, and how that factors into the 
overall evaluation of a TSO?
    Answer. The Transportation Security Administration (TSA) is 
committed to enhancing the performance of its front line workforce and 
has implemented various programs to that end. Factors deemed critical 
to success not only include technical proficiency in screening 
operations, but those factors that contribute to deterrence, passenger 
experience, and workplace atmosphere. Passengers have multiple vehicles 
for providing feedback to TSA, such as the TSA Contact Center via 
telephone or e-mail; comment cards that are available at the checkpoint 
upon request; and through local Customer Service and Quality 
Improvement Managers at the airport. If passenger feedback cannot be 
addressed at the local level, it is elevated to TSA Headquarters for 
review and appropriate action.
    The passenger experience (sometimes referred to as customer 
service) is important to TSA as is demonstrated by the implementation 
of the Presence Advisements, Communication, and Execution (PACE) 
program, which was launched in 2011. The PACE program deploys 
evaluation teams to six geographical regions. Teams of evaluators 
travel in pairs to covertly assess checkpoints at Category X, I, and II 
airports by posing as inexperienced travelers.
    A PACE assessment evaluates how a checkpoint is adhering to 
standards derived from TSA management directives and the checkpoint 
screening Standard Operating Procedure.
    TSA measures many other elements related to passenger experience 
through the PACE program. Elements include TSO command presence, 
whether they proactively direct and prepare passengers for the next 
stage of screening, and how they communicate with each other and with 
passengers.
    The TSOs are evaluated in the Transportation Officers Performance 
System (TOPS). The performance goal by which they are evaluated is 
``Demonstrates professionalism and commitment to TSA's mission in order 
to promote public trust and confidence.'' The measures for the 
performance standards include: ``fosters public trust and credibility 
by providing responsive service to internal/external customers and in 
accordance with TSA directives; maintains a positive demeanor and 
awareness while conducting assigned screening functions and operations, 
as observed by supervision; diffuses potentially disruptive situations 
promptly and tactfully.'' This goal is part of the 4-tier performance 
plan that also includes an assessment of competencies, i.e., oral 
communication and interpersonal skills.
    All of these elements factor into overall performance. While TSO 
names are not recorded (unless an egregious situation is observed), 
immediate feedback is provided to the Federal Security Director (FSD) 
following an assessment so that corrections can be made. Detailed 
written reports are provided to FSDs on the performance of each 
checkpoint so they may target specific deficiencies discovered. Each 
year, Category X, I, and II airports receive two PACE assessments for 
approximately 75 percent of the airport's checkpoints.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
